<html>
<title> - SEXUAL ASSAULT IN THE MILITARY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     SEXUAL ASSAULT IN THE MILITARY 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2008

                               __________

                           Serial No. 110-187

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-635 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
JACKIE SPEIER, California
                       Dave Turk, Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2008....................................     1
Statement of:
    Harman, Hon. Jane, a Representative in Congress from the 
      State of California........................................    18
    Rochelle, Lieutenant General Michael D., Deputy Chief of 
      Staff, G1, U.S. Army; and Brenda S. Farrell, Director, 
      Defense Capabilities and Management, U.S. Government 
      Accountability Office......................................    91
        Farrell, Brenda S........................................    98
        Rochelle, Lieutenant General Michael D...................    91
    Slaughter, Hon. Louise M., a Representative in Congress from 
      the State of New York......................................     7
    Torres, Ingrid S., MSW, CSW; and Mary Steiner Lauterbach, 
      mother of Lance Corporal Maria Lauterbach..................    24
        Lauterbach, Mary Steiner.................................    45
        Torres, Ingrid S.........................................    24
Letters, statements, etc., submitted for the record by:
    Farrell, Brenda S., Director, Defense Capabilities and 
      Management, U.S. Government Accountability Office, prepared 
      statement of...............................................   100
    Harman, Hon. Jane, a Representative in Congress from the 
      State of California, prepared statement of.................    21
    Lauterbach, Mary Steiner, mother of Lance Corporal Maria 
      Lauterbach, prepared statement of..........................    47
    Rochelle, Lieutenant General Michael D., Deputy Chief of 
      Staff, G1, U.S. Army, prepared statement of................    93
    Slaughter, Hon. Louise M., a Representative in Congress from 
      the State of New York, prepared statement of...............    10
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4
    Torres, Ingrid S., MSW, CSW, prepared statement of...........    30


                     SEXUAL ASSAULT IN THE MILITARY

                              ----------                              


                        THURSDAY, JULY 31, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Braley, McCollum, Cooper, 
Welch, Shays, Platts, Turner, and Waxman (ex officio).
    Also present: Representative Davis of California.
    Staff present: Dave Turk, staff director; Andrew Su, 
professional staff member; Davis Hake, clerk; Andy Wright, 
counsel; Rebbeca Macke, graduate intern; A. Brooke Bennett, 
minority counsel; Todd Greenwood and John Ohly, minority 
professional staff members; Mark Lavin, minority Army fellow; 
and Nick Palarino, minority senior investigator and policy 
advisor.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``Sexual Assault in the Military,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. And I ask unanimous consent that the following 
Members be allowed to participate in this hearing: 
Congresswoman Louise Slaughter from New York, Congresswoman 
Jane Harman from California, Congresswoman Susan Davis from 
California, Congresswoman Diane Watson from California and 
Congressman Elijah Cummings from Maryland.
    Pursuant to the House Rules, these Members will be allowed 
to ask questions of our witnesses only after all members of the 
subcommittee have first had an opportunity to do so. Without 
objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    Good morning, and thank you all for being here. I 
particularly thank our fellow Members, our colleagues who are 
here. Ms. Slaughter, I understand that you have to leave to be 
on the floor of the House by 10:15. Mr. Shays has graciously 
indicated he will waive his opening statement until after you 
have testified. I will just open quickly and set some 
groundwork for the hearing.
    We are conducting this hearing obviously for the oversight 
of sexual assault in the military. What is at stake here goes 
to the very core of the values of the military and of the 
Nation itself. When our sons and daughters put their lives on 
the line to defend the rest of us, the last thing they should 
fear is being attacked by one of our own.
    We fundamentally have a duty to prevent sexual assaults in 
the military as much as humanly possible and to punish 
attackers quickly and severely. We also must empower victims so 
they feel comfortable coming forward to seek justice and to 
receive help to get their lives back on track and to restore 
their dignity.
    Finally, we simply must ensure a climate in our military 
where sexual assault is in no way, either officially or 
unofficially, condoned, ignored or tolerated.
    Sexual assault scandals have taken place in every 
administration and each and every military service, from 
Vietnam to the 1991 Tailhook scandal in the Navy, from the 1996 
Aberdeen incidents in the Army to the Air Force Academy in 
2003. After each scandal, we are told by Defense Department 
officials that they will crack down on violators and change the 
military culture so that those despicable crimes will never 
happen again.
    We hear time and again that the military has a zero 
tolerance policy toward sexual assaults. Yet there sometimes 
appears to be a lack of urgency or leadership or resources to 
transform those statements into reality.
    Since this subcommittee's 2006 hearing, I understand and 
appreciate that the Defense Department has taken some positive 
steps to improve training, education and care. Congress, too, 
has been active. We have demanded greater transparency and 
accountability. We have tasked the Pentagon with establishing 
comprehensive policies to prevent and respond to military 
sexual assault and to ensure access to trained personnel. We 
have required the Department to collect information and to 
report this data back to Congress.
    Today the subcommittee will assess the military's efforts 
with a specific focus on exploring what more we can do to 
prevent sexual assaults from happening in the first place; to 
provide support, dignity and services to victims; and to 
quickly and vigorously punish those committing the heinous 
crimes.
    We will first hear from top leaders in Congress, 
specifically from Louise Slaughter of New York and Jane Harman 
of California. These are representatives who have been 
instrumental in past legislative accomplishments and who have 
been advocating for further specific improvements.
    We will then welcome Ingrid Torres and Mary Lauterbach. We 
are privileged to have you both testify before us today, so 
that all of us, Members of Congress, executive branch 
officials, and the American public can learn from your personal 
tragedies; so that lessons from your harrowing tales and your 
insights can spur action; so good can come from your tragedies. 
Your courage in being with us here is truly inspiring, and we 
thank you.
    Finally, we will hear from a panel of Government officials. 
We have scheduled some key policymakers from the Defense 
Department as well as our military services, and we expect that 
they will explain to us all of their current efforts. We will 
also hear from the Government Accountability Office on its 2-
year independent investigation into efforts to prevent and 
respond to military sexual assaults. The Government 
Accountability Office will discuss both the progress that has 
been made as well as highlight remaining challenges and 
obstacles that need to be overcome.
    I will waive the balance of my statement, and put it in the 
record with the assent of all the Members here. Hearing no 
objection, so ordered. We will move to Ms. Slaughter, who has a 
time constraint, and we really do want to hear what you want to 
say, particularly about the legislation that you filed.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  STATEMENT OF HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you for your great kindness in 
foregoing your opening statements. I have the convergence of 
facts that falls on us every morning here, and I have to be on 
the floor very shortly.
    This is a terribly important issue to us. I thank you for 
the interest that both of you have shown in this, and the 
support you have given.
    I want to express this gratitude, because not only are you 
worried about it, and it has been a continuing oversight on 
your part to address this problem of sexual assault in the 
military. It is an ongoing problem. It has gone on for far too 
long. And I appreciate your efforts to hold the Department of 
Defense accountable for implementing the programs to prevent 
and prosecute sexual assault and to care for its victims.
    Incidents of sexual assault and sexual harassment in the 
military undermine the solidarity and trust essential to the 
success of military operations. The very nature of military 
operations exposes our service men and women to dangers that 
most of us could never imagine. Those who enlist to serve 
expect to sacrifice their safety to protect Americans from 
foreign enemies. But they do not and should not expect to have 
to defend themselves from their fellow service members. 
Unfortunately, women have suffered in silence for decades, but 
as the result of courageous women sharing their stories of 
being sexually assaulted, we decided to act.
    In March 2004, as co-chair of the Congressional Caucus on 
Women's Issues, I held a hearing on this issue. I will never 
forget one of the witnesses who talked about her horror of 
having to salute her rapist every day. She finally left the 
military. In fact, many women who tried to report sexual 
assault were told, you don't want to ruin that young man's 
career, dear. There was absolutely nothing done for them, it 
was classic blame the victim. And most of them failed to be at 
all supported and lost their own military careers because of 
it.
    But following that hearing, the House unanimously adopted a 
amendment to the fiscal year 2005 Defense Authorization bill, 
requiring the Pentagon to develop a comprehensive and uniform 
policy to prevent and to respond to the sexual assault of women 
in the military. And every year since, we keep chipping away at 
the problem, and there is still, I am sorry to say, a way to 
go.
    Beginning in 2006, DOD allowed victims of sexual assault 
options in reporting. The unrestricted reporting triggers the 
chain of command, making health care information and other 
details part of a record available to the military law 
enforcement. While restricted reporting enables the victim to 
get the counseling and health care services they need, DOD 
needs to expand this protection to allow victims to come 
forward and seek justice throughout the legal system without 
compromising the confidentiality of their private health care 
system. Many women have had to go off base, seeking out rape 
crisis systems to get any kind of relief at all.
    This March, the Department of Defense fourth annual report 
states that 2,688 results were reported last year by people in 
uniform. It was down about 9 percent from the year before. But 
the decline follows a change in reporting methods in 2 years of 
marked increases in reports of sexual assault. The reports 
jumped by about 24 percent in 2006 and nearly 40 percent in 
2005. Given the increase in reports of sexual assault 
documented in two previous reports and possible discrepancies 
arising out of the change in the reporting methods, it is hard 
to conclusively determine that the decline in reports of sexual 
assault reflects an actual decline in that behavior.
    Failure to uniformly gather and report information related 
to the investigation and disposition of sexual assault claims 
complicates our policy-based efforts to address sexual assault 
in the military and frustrates the purpose of the Department of 
Defense's existing programs. Moreover, failure to use common 
terminology in reporting among the services prevents Congress 
and DOD from having a complete understanding of the problem.
    Additionally, the holes in information and the 
understanding left open by a lack of cohesive reporting 
practices are made worse by an overall lack of coordination 
among the services. Piecemeal solutions will not solve a 
pervasive problem. We need a comprehensive approach to 
addressing sexual assault and harassment. So I have 
reintroduced the Military Domestic and Sexual Violence Response 
Act. I think this is an important piece of legislation that 
will ensure greater protections for service members and their 
families should they become victims of violence. It will also 
strengthen programs to prevent violence against fellow soldiers 
and military families.
    The Military Domestic and Sexual Violence Response Act will 
bring the military up to par with civilian laws. Specifically, 
it will establish the Office of Victims Advocate within the DOD 
to bring the Family Advocacy Program under the Office of 
Victims Advocate, and create a director of the Office of 
Victims Advocates to oversee and to coordinate, to prevent and 
respond to cases of domestic violence and sexual assault. That 
is done rarely, too seldom. It will codify the rights and the 
restitution policies, the treatment and other services for 
victims within UCMJ, including creating comprehensive 
confidentiality protocols to protect the rights of victims. I 
cannot stress enough that in these cases the victims have 
almost no rights at all. It will strengthen policies for 
reporting prosecution and certainly going after the 
perpetrators of violence.
    Now, in addition to protecting our service members from 
sexual assault and harassment, we have a new duty we have to 
perform, and that is to protect individuals who work in foreign 
countries as contractors working overseas. Earlier this year, I 
was troubled to hear the story of Jamie Leigh Jones, an 
American citizen who alleged that she was gang raped by fellow 
employees while employed in Baghdad by KBR in 2005. After the 
alleged attack, Army doctors did perform a medical examination 
on Ms. Jones and found evidence of vaginal and anal rape.
    For reasons beyond my comprehension, the results of the 
rape kit were turned over to KBR. According to Ms. Jones, she 
was held captive in a shipping crate under armed guard and 
deprived of food and water for 24 hours by KBR security.
    The State Department and U.S. Embassy in Baghdad did 
facilitate Ms. Jones' release, and thanks to Congressman Poe 
for helping with that. All the portions of the kit have 
mysteriously disappeared. Over 2\1/2\ years later, her 
assailants have yet to be indicted and she has yet to receive 
justice. Mr. Chairman, she is only one of many cases.
    The affidavits filed in the case of Jamie Leigh Jones show 
an alarming pattern of widespread sexual assault and harassment 
among Government contract employees in environments that 
condone and support such behavior, and retaliation against 
victims who come forward regarding these crimes. Now, I 
understand that DOD has a protocol for dealing with assault 
claims raised by contractors. But these harrowing experiences 
prompt us to pose serious questions regarding the DOD's overall 
efforts to address crimes against individuals in similar 
situations.
    The question basically is, do we have any responsibility 
over the American contractors? I know that from time to time, 
we have wavered a lot in the answer for that. DOD must do more 
to ensure that American civilians serving abroad receive the 
same protections as our service members. Any incident of sexual 
assault is one too many. The military should be at the 
forefront of prosecuting assailants and setting high standards 
for treatment for service men and women and the civilians with 
whom they work.
    We will lose valuable soldiers if our armed forces cannot 
guarantee the most basic protections to ensure that the victims 
receive necessary counseling and treatment.
    Mr. Chairman, in my own district, I know of a young woman 
in the intelligence services in the Air Force who was based in 
Alaska and was a victim of the great macho Air Force, we are 
the big men who fly, sort of the same thing that happened with 
Tailhook. This brilliant young woman with a brilliant future 
ahead of her, in her 20's, was so broken by what had happened 
to her that she had to give up any opportunity for promotion or 
even to serve the country that she loved just as much as anyone 
else in the service.
    We have had this go on far too long. I appreciate the 
complexity of it and the laying of responsibility. But at the 
very least, we should change our attitude and determine that 
the victim deserves the best that we can give her. And if it 
requires separating the person she has accused until it can be 
adjudicated, I frankly would like to see that happen. I don't 
want any more women ever coming to work in the morning saluting 
the man who may have raped her the night before.
    Thank you very much for your courtesy; I appreciate it.
    [The prepared statement of Hon. Louise M. Slaughter 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Tierney. Thank you, Ms. Slaughter. We appreciate your 
testimony and your leadership on this issue and also the fact 
that you have to remove now to the floor where you are doing a 
rule, I believe, on that.
    Ms. Slaughter. I can't thank you all enough for giving up 
your time. You are most generous.
    Mr. Tierney. We appreciate it. Thank you.
    Ms. Harman, with your consent, we are going to go to the 
chairman's opening statement. We are pleased to have with us 
the chairman of the full committee to make an opening 
statement, then Mr. Shays, then we will have the testimony of 
Ms. Harman.
    Mr. Waxman, you are recognized.
    Mr. Waxman. Thank you very much, Mr. Chairman. I appreciate 
the indulgence of our colleague, Jane Harman. And I thank her 
and Louise Slaughter for their leadership on this issue and 
their speaking out about this problem.
    Mr. Chairman, I appreciate you and Mr. Shays holding this 
hearing. Yesterday, we held a hearing about the accidental 
electrocutions of military people in their barracks, even in 
their showers. And it showed that the Defense Department has 
failed the test of providing our soldiers with a safe living 
environment. Today we are going to examine another area where 
the Department has failed the test of basic protections for our 
soldiers, sexual assault.
    Sexual assaults have occurred in every branch of the 
military. It is a longstanding problem and the refusal of the 
military to fix this problem is embarrassing and tragic. As the 
Government Accountability Office is going to report today, it 
is difficult to get the Department of Defense to take basic 
steps, such as standardizing definitions of sexual assault and 
harassment, collecting data and hiring victim advocates and 
social workers.
    It appears that commanders at Military installations are 
given far too much latitude and discretion in deciding the 
outcome of reported assaults. Often offenders simply get a slap 
on the wrist. This hearing and Congress must send a message 
that sexual assault and harassment will not be tolerated 
anywhere in the military and there will be a clear and harsh 
punishment for violators.
    Mr. Chairman, I am concerned that given our Nation's 
increasing reliance on contractors, they should be neither 
immune from prosecution nor left without medical and legal 
recourse when they are the victims of sexual assaults. Our 
troops make enormous sacrifices to protect our Nation. We need 
to protect them from being victimized by their fellow soldiers 
and commanding officers.
    I thank you for this opportunity to make a statement. I 
have a longer one I wish to put into the record.
    Mr. Tierney. Without objection, it will be put into the 
record and thank you very much, Mr. Chairman.
    Mr. Shays, you are recognized.
    Mr. Shays. Thank you, Chairman Tierney, for scheduling this 
hearing and continuing to apply needed pressure on the 
Department of Defense, DOD, regarding sexual assault in our 
military. As the former chairman of the subcommittee, I held a 
hearing on this issue and commissioned a report from the 
Government Accountability Office [GAO], in 2006, focusing on 
sexual assault in two of our Nation's military academies. This 
subcommittee heard from Ms. Beth Davis, a former U.S. Air Force 
Academy cadet who detailed a horrific experience of rape in a 
culture that fostered this destructive behavior. She testified, 
``I was raped and assaulted repeatedly, and they instructed us 
that if we were attacked, to not report it to the authorities, 
because it would effectively destroy our careers.''
    Her ordeal triggered a 2005 Defense Task Force on sexual 
harassment and violence at the military service academies. 
Understanding that this problem was more systematic, the 2005 
National Defense Authorization Act required DOD to establish a 
second task force to evaluate sexual assault in the military. 
That was in 2005.
    At the time of our June 2006 hearing, this task force still 
needed the appointment of several more members. DOD offered no 
sound reasons for dragging its feet other than the members were 
being strategically selected. The task force is intended to 
provide the military with feedback on its programs and evaluate 
them across the DOD. The task force was chartered so best 
practices could then be incorporated and sound policy 
implemented.
    One key development to support the work of this task force 
was the creation of a data base that accurately records 
incidents of sexual assault across the military. This 
information will be used to evaluate programs and better 
protect our service members who fall victim to sexual assault. 
So the questions I have are simple. Where are we today? And how 
far has the program developed in 2 years?
    Well, let's look at the facts. Programs have been 
implemented by the services. However, DOD has still not created 
a data base to accurately record incidents of sexual assault. 
DOD is limited in its ability to conduct comprehensive analysis 
of sexual assault incidents because the services are not 
providing the installation data.
    Therefore, DOD lacks the information to try to evaluate its 
programs, apply lessons on a macro level or target its 
resources to fix problems. Additionally, as one brave young 
lady will describe today, there exists a large gap between the 
level of care and services available to both civil servants and 
civilian dependents who are subject to this criminal behavior. 
These challenges in program limitations could have been 
addressed and potentially remedied by the Defense Task Force 
nearly 2 years ago and certainly by now.
    However, this group has never met. We have just recently 
been informed that they will meet for the first time next 
month, in 2008, while it was supposed to be established in 
2005. At the June 2006 hearing, the DOD told this subcommittee 
that the task force and the data base were days away from being 
fully operational. That was in 2006. Here we are in 2008. And 
again being told that they are days away from being fully 
operational. Years of inaction at the DOD continue to speak 
volumes about the senior leadership commitment, or more 
appropriately stated, lack of commitment, to our service 
members and civil servants. Our military's greatest challenge 
should be on the battlefield, not protecting its members from 
sexual assault.
    Thankfully, this subcommittee had the foresight to keep GAO 
studying and auditing DOD to document its lack of commitment to 
battling sexual assault. Testimony today will show that at the 
department level, little progress has been made. I look to the 
GAO today to help us sort out this colossal mess. The 
subcommittee understands that sexual assault is a problem 
within DOD and within our society. This should not be an excuse 
for DOD, but a reason for extra effort. The culture in the 
military has changed somewhat from the days of the Tailhook 
incident. But it is pathetic to think that DOD cares so little 
about the safety of its female employees and the conduct of its 
male employees.
    I appreciate Congresswoman Slaughter and Congresswoman 
Harman for testifying today. I want to assure them, we will do 
everything we have to on a bipartisan basis to make sure DOD 
wakes up to the victimization of the women who serve our 
country. The DOD has run out of excuses. When it comes to 
sexual assault in the military, DOD has no credibility, 
absolutely none, zero, zip.
    Mr. Tierney. Thank you, Mr. Shays, and thank you for your 
leadership on this. I think it is important to note that these 
hearings were actually commenced when you were chair of the 
subcommittee, and we continue on with that work because of its 
importance.
    The Honorable Jane S. Harman has joined us here this 
morning. Congresswoman Harman has represented California's 36th 
District since 1992. She currently serves as the Chair of the 
Homeland Security Subcommittee on Intelligence and Terrorism 
Risk Assessment and is also a member of the Energy and Commerce 
Committee. Most recently, she has introduced a sense of 
Congress resolution urging the Secretary of Defense to 
encourage more investigations and prosecutions of sexual 
assault in the military. Congresswoman Harman is a long-time 
leader of women's health issues, and we are happy to have you 
here today.
    Ms. Harman, please benefit us with your testimony.

  STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman, and thank you, Mr. 
Shays, for your powerful remarks, for your enormous concern 
about an issue that is deeply personal for me. As a woman 
Member of this House, as someone who has focused her entire 
career here on protecting the security of the United States of 
America, it is galling and enormously upsetting to think that 
the personal security of the women who fight for our flag is at 
risk.
    As you mentioned, I spent 6 years here serving on the Armed 
Services Committee where I was on a three-person task force 
investigating sexual harassment against women in the military. 
I spent 8 years on the Intelligence Committee, I spent 4 years 
on the Homeland Security Committee, where I chaired the 
Intelligence Subcommittee. And these issues are never far from 
my personal priority list.
    Sixty years have passed since President Truman issued his 
historic order ending racial segregation in the military. Here 
in Congress, we recently commemorated this milestone with 
Defense Secretary Robert Gates and former Secretary of State 
and chairman of the Joint Chiefs Colin Powell. Speaking at the 
event, Secretary Powell, who joined the Army just 10 years 
after Truman's order, said, ``They no longer cared whether I 
was black or white, immigrant or not.'' His commanders, he 
said, asked him only one question: can you perform? And as we 
all know, he did.
    Perhaps less well known is that the same year, Truman also 
signed the Women's Armed Services Integration Act into law, 
landmark legislation that allowed women to serve permanently in 
the armed forces. And we have. But as noteworthy as this event 
was, the progress it represented on paper, the progress for 
women it represented on paper, it still in many important 
respects eludes us. And I want to focus today, as you are, and 
as this hearing is, on a major problem, which is rape and 
sexual assault in the military, and the bipartisan legislation 
that Mike Turner, a member of your panel--who is sitting right 
here, and I am pleased to see you, Mike--and I have introduced, 
H. Con. Res. 397, which is intended to halt the epidemic of 
assault and rape against women in our military.
    The stories are shocking in their simplicity and brutality. 
A female military recruit is pinned down at knife point and 
raped repeatedly in her barracks. Though her attackers hid 
their faces, she identified them by their uniforms. They were 
her fellow soldiers. During a routine gynecological exam, a 
female soldier is attacked and raped by her military physician. 
Yet another young soldier, still adapting to life in a war 
zone, is raped by her commanding officer. Afraid for her 
standing in her unit, she feels she has nowhere to turn.
    These stories are sadly not isolated events. Women serving 
in the U.S. military today are more likely to be raped by a 
fellow soldier than killed by enemy fire in Iraq. Let me say 
that again. Women serving in the U.S. military today are more 
likely to be raped by a fellow soldier than killed by enemy 
fire in Iraq.
    The scope of the problem was brought into acute focus for 
me during a visit to the West Los Angeles VA Health Center, 
where I met female veterans and their doctors. My jaw dropped 
when the doctors told me that 41 percent of the female veterans 
seen there say they were victims of sexual assault while 
serving in the military; 29 percent say they were raped during 
their military service. They spoke of their continued terror, 
feelings of helplessness and the downward spirals many of their 
lives have taken since, just the kind of story that Louise 
Slaughter just described.
    Numbers reported by the Department of Defense show the same 
sickening pattern. In 2006, 2,947 sexual assaults were 
reported, 73 percent more than in 2004. The DOD's most recent 
report, released earlier this summer, indicates that 2,688 
reports were made in 2007. But a recent shift, as you have 
heard, from calendar year reporting to fiscal year reporting 
makes comparisons with data from previous years much more 
difficult.
    The Pentagon has made some efforts to manage this epidemic, 
most notably in 2005, after the media received anonymous e-mail 
messages about sexual assaults at the Air Force Academy. The 
press scrutiny and congressional attention, and I thank you for 
that, which followed led DOD to create the Sexual Assault and 
Response Office, SAPRO. Since its inception, SAPRO has 
initiated training and improved reporting of rapes and sexual 
assaults, but has failed to track prosecution rates, or how 
witnesses are faring within the military structure. I can tell 
you how they are faring, and it is not a happy story.
    At the heart of this crisis is an apparent inability or 
unwillingness to prosecute rapists in the ranks. According to 
DOD's own statistics, a mere 181 out of 2,212 subjects, or 8 
percent investigated for sexual assaults in 2007, including 
over 1,200 reports of rape, were referred to courts-martial. In 
nearly half the cases investigated, the chain of command took 
no action and in the majority of those that were acted upon, 
the offenders were assigned administrative or non-judicial 
punishment. As Chairman Waxman just said, in most cases that 
meant a slap on the wrist.
    In more than one-third of the cases that were not pursued, 
the commander took no action because of ``insufficient 
evidence.'' This is in stark contrast to the civil justice 
system, where 40 percent of those arrested for rape are 
prosecuted, according to Department of Justice and FBI figures. 
The DOD must close this gap and remove the obstacles to 
effective investigation and prosecution. Failure to draw bright 
red lines produces two harmful consequences. First, it deters 
victims from reporting rapes, and it fails to deter offenders. 
But second of all, it perpetuates the attitude, which all of us 
should condemn, that boys will be boys.
    The legislation that Mr. Turner and I have introduced calls 
on the Secretary of Defense to develop and implement a 
comprehensive strategy to end assault and rape in the military, 
to encourage and increase investigations and prosecutions. It 
also urges the Secretary to provide better protection for 
victims from their alleged attackers after reporting a sexual 
assault or rape.
    I have raised this issue, Mr. Chairman, personally with 
Secretary of Defense Gates, Chairman of the Joint Chiefs 
Admiral Mike Mullen, our former colleague, Army Secretary Pete 
Geren, among others. While they express real concern, and I 
believe that Pete Geren is going to make this a major focus of 
his tenure as Secretary of the Army, and I commend him for 
this, much, much, much more needs to be done.
    And Congress must do better, too. While these sexual 
assault statistics are readily available, our oversight has yet 
to come to grips with an effective answer to solve the problem. 
No doubt the abhorrent and graphic nature of the reports makes 
people uncomfortable. But this is no excuse, and I applaud you, 
and I applaud Mr. Shays for shining a light and focusing on 
this problem.
    Let me just conclude with this. Most of our service women 
and men are patriotic, courageous and hard-working people who 
embody the best of what it means to be an American. The failure 
to stem sexual assault and rape in the military runs counter to 
those ideals and shames us all.
    Thank you.
    [The prepared statement of Hon. Jane Harman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much, Ms. Harman. You have 
given us some information that is substantial there.
    Did you want to ask for clarification on any of that, Mr. 
Shays?
    Mr. Shays. Just one. First, thank you for your great 
statement and your kind words to all of us. But you gave a 
statistic of something like 2,000 or 1,200, and was that an 
annual rate of accusation? This was, you were making, it was 
something to do with accusation.
    Ms. Harman. I said that according to DOD's statistics, 181, 
a mere 181 out of 2,212----
    Mr. Shays. 2,212 accusations. Thank you, that is the 
number.
    Ms. Harman [continuing]. Subjects investigated for sexual 
assault in 2007 were referred to courts-martial. So it is an 8 
percent rate, and that compares with a 40 percent rate in the 
civil justice system.
    Mr. Shays. So it was a 2,000 number that was studied?
    Ms. Harman. Yes, 2,200 in 2007.
    Mr. Tierney. Thank you, Ms. Harman.
    I understand that, if possible, you are going to join the 
panel some time today. I know you have a busy schedule. We want 
to thank you very much for sharing your testimony and for your 
drive behind this issue and your leadership.
    Ms. Harman. Thank you, Mr. Chairman, and I will try to 
stay, because as I said, this is a very deeply personal issue 
to me, and I respect very much the people who will appear on 
panels following me. I appreciate the committee's courtesy in 
inviting me to sit as part of the hearing panel. I want to 
thank you again for your personal interest.
    Mr. Tierney. We are happy to have you join us.
    Ms. Harman. You and I have had numerous conversations about 
this subject.
    Mr. Tierney. We have. Thank you.
    With that, we will move to the second panel. Thank you 
again, Ms. Harman. If the members of our second panel will 
kindly take their seats, in a couple of minutes we will get 
started on that.
    The subcommittee will now receive testimony from our second 
panel of witnesses. We want to thank you both for your courage 
in coming to share your stories and your insights with us 
today. We are hoping that your testimony gives us some guidance 
on how we might improve the situation and what we do in the 
service with respect to issues of rape and assault.
    Ms. Ingrid Torres is a station manager with the American 
Red Cross. She has served in close proximity with the U.S. 
military, including by providing direct field support to 
military operations. Since beginning her career with the 
American Red Cross in 2003, Ms. Torres has served, among other 
places, in Germany, Korea, Iraq and Japan. She has a masters in 
social work from the University of Michigan in Ann Arbor. We 
thank you, Ms. Torres, for your years of dedicated public 
service. We welcome you to the hearing today.
    I would like to yield to Congressman Turner to briefly 
introduce our second witness on the panel, who is a constituent 
in his district, Ms. Mary Lauterbach.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Shays and Representative Harman for your 
efforts to highlight this issue. This is a very serious issue 
which has incredible consequences on individual people's lives. 
We will hear some of that today. It is an opportunity where I 
think we can get the type of information necessary for us to be 
able to take action that hopefully can make a difference in 
this.
    Today I have with us Mary Lauterbach, who is from my 
district in Vandalia, OH. Many people have heard the tragic 
story of her daughter, Maria, who was raped and murdered. Maria 
accused a fellow Marine, Cesar Laurean, of raping her. After 
that accusation, Maria and her unborn child were found dead and 
buried in Laurean's back yard.
    Since that tragic death, Mary has been a tireless advocate 
for women in uniform. She has visited Capitol Hill, and Mr. 
Chairman and ranking member, I appreciate your efforts to meet 
with her and hear her story and the ways we can make a 
difference. Her story is inspirational. She has taken this to 
the issue of not only wanting answers about the tragic death of 
her daughter, Maria, but how can we make a difference in 
protecting other women who are serving and addressing this 
issue.
    So Mr. Chairman, thank you for having her today. We 
appreciate the opportunity to hear her story.
    Mr. Tierney. Thank you, Mr. Turner.
    Thank you, Ms. Lauterbach, for joining us.
    It is the custom of this committee to swear in witnesses 
before they testify, so I will ask the witnesses to please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will please reflect that 
both witnesses answered in the affirmative.
    Your full statements are going to be placed on the record 
with the unanimous consent of this committee, so you needn't 
feel compelled to have to read the whole of it. We allot about 
5 minutes for opening statements, because Members will be 
anxious to ask questions and delve for some insight on that. So 
please try to keep your remarks within 5 minutes. You will see 
the light turn from green to yellow when there is about a 
minute left. A bell doesn't go off, just the light changes. 
Then it turns to red when time is up. We of course will let you 
wind down and finish as appropriately as possible.
    We appreciate your being here. We are going to be as 
lenient as we can on the time.
    Ms. Torres, we will start with you if you are ready.

  STATEMENTS OF INGRID S. TORRES, MSW, CSW; AND MARY STEINER 
     LAUTERBACH, MOTHER OF LANCE CORPORAL MARIA LAUTERBACH

                 STATEMENT OF INGRID S. TORRES

    Ms. Torres. Chairman Tierney, Congressman Shays and other 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today about the Department of Defense 
Sexual Assault Prevention and Response Program.
    I would also like to thank RAINN for their continued 
support of victims of sexual assault.
    I would like to begin by explaining a little about whom I 
am and the work that I do before summarizing my experiences 
with the SAPRO program. Before I get into that, however, I just 
state that I am here not as a representative of my employer, 
but rather, I am here as a private citizen.
    That said, I am currently employed by the American National 
Red Cross within a branch of our organization that works almost 
exclusively with the military. As a member of the Service to 
the Armed Forces [SAF], mobile staff, I have been stationed at 
Yokota Air base in Tokyo, Japan; Camp Victory in Baghdad, Iraq; 
Kunsan Air Base in the Republic of Korea; and the U.S. Army 
Garrison Mannheim in Mannheim, Germany.
    At overseas bases, American Red Cross managers are 
considered emergency and essential personnel and are thus 
required to live on the installation. My time overseas was 
spent with the American military and the men and women that I 
lived and worked with became my colleagues and friends.
    I grew up in Indiana, moved to Ann Arbor, Michigan to 
pursue a masters of social work [MSW], at the University of 
Michigan. I first started working for the Red Cross in 2003 in 
Michigan while working to complete my MSW. I graduated in 2005 
and accepted a position with the American National Red Cross as 
an assistant station manager in Japan. I remember being so 
excited to be doing a job that can make a difference to those 
serving their country, especially during a time of war.
    It was while I was stationed at Kunsan Air Base in the 
Republic of Korea in 2006 that I endured an assault, which is 
the reason I am sitting in front of all of you today. On the 
evening of the assault, I had taken Ambien, a medication I had 
been prescribed to aid in sleep after serving in Iraq. And I 
was raped while I slept.
    The perpetrator, who was an installation flight doctor, had 
a complete understanding of the effects of a sleeping aid such 
as Ambien, and he used that knowledge to hurt me. He was later 
found guilty and is currently in military confinement and has 
been dismissed from the Air Force.
    The road after sexual assault is a long and challenging 
one. As is typical with victims of violent crime, I suffered 
from PTSD, terrifying nightmares and depression. I still wake 
in the night, he still comes after me in my dreams. Since the 
night of the rape and in the aftermath of the trial, I have 
experienced the SAPRO program at duty stations in Korea, Japan 
and Germany. I must say that the programs in each area vary 
greatly, some better, some worse, all in need of change. 
Civilians are not afforded the same protections as active duty 
military personnel after suffering a sexual assault. And yet 
civilians outnumber the military personnel with whom they live 
and serve. Civilians outnumber active duty personnel, and yet 
they are sidelined when it comes to being provided adequate 
care after an assault.
    Throughout the rest of my statement, I am going to advise 
you of some of the different aspects of the SAPRO program and 
provide you with my recommendations for change. Specifically, I 
will be discussing restricted versus unrestricted reporting, 
some of the differences in the SAPRO program at different duty 
locations and the response from military personnel. I will 
conclude by making five recommendations.
    First, restricted versus unrestricted reporting. About 2 
years ago, a policy was established that allowed for military 
personnel to report a sexual assault as either restricted or 
unrestricted. A restricted report gives victims the option to 
come forward and get medical services confidentially, without 
going through the chain of command.
    Mr. Tierney. Ms. Torres, we are going to turn the light 
off, so that you can take the time that you need to testify. 
You have five recommendations, I think that we want to hear 
them fully. So don't feel compelled to rush because that light 
keeps flicking in front of you. We are happy to hear the 
balance of your testimony.
    Thank you.
    Ms. Torres. A restricted report gives victims the option to 
come forward and get medical services confidentially, without 
going through the chain of command or the legal system. 
Civilians, however, were not and are not yet afforded this 
option. We are only allowed to make an unrestricted report, 
which means that once a civilian comes forward, the Military is 
required to investigate the crime and, if there is sufficient 
evidence, the military is required to prosecute. The entire 
process is difficult, prolonged and serves to re-victimize the 
injured party at every turn, as I was. If I knew then what I 
know now, I can't say with certainty that I would have reported 
the assault, because of the challenge that I experienced with 
the system.
    I should at the very least have had the option of making a 
restricted report, if for no other reason than to avoid facing 
the obstacles that I faced every time I needed to go to the 
health clinic, where my perpetrator worked and was allowed to 
continue working, or to attend meetings with the base's group 
commanders, lawyers or investigators that were processing my 
case. My life became about the rape.
    I have dealt with a lot of hostility over the last year and 
a half because of the sheer number of people who knew about the 
incident and the way that my case was handled. It seemed that 
everybody knew what was going on, and I had to continue to work 
with these individuals for nearly a year. Because of the 
pending court-martial, I was advised by OSI, the Office of 
Special Investigations and JAG not to talk openly about the 
case, which caused rumors and misconceptions to run rampant. 
There was no escaping it and there was no making it better. The 
hostility grew with my silence, mostly, I learned, after the 
trial, because no one knew exactly what was going on and it 
made everybody uncomfortable.
    Ultimately, our society still publicly and privately tries 
the victims in sexual assault cases. Rape is the only crime 
where the victim must prove their innocence.
    The Sexual Assault Prevention and Response Program has very 
little oversight and is different, depending on where you live. 
During legal proceedings of my case, I was stationed at three 
different bases in three different countries and had three very 
different experiences with the SAPRO program within multiple 
branches of the military. There are so many differences that I 
can't really go into all of them now.
    Some of the things of note, the difference between victim 
advocates between the Army and the Air Force specifically, how 
they are selected, inconsistent knowledge of the program by the 
SARCs, the sexual assault response coordinators. Also being 
denied care was another issue. I would be happy to answer 
further questions about some of the differences in detail 
should you have those. They are written in my official written 
statement.
    Third, response from military personnel. I do believe that 
the response from senior leadership as well as other military 
personnel is an important element in preventing future rapes 
from occurring. The best example I can give you is that I was 
actually approached by the offender's commander and he 
requested my opinion on punishing the crime with an Article 15 
rather than a court-martial. An Article 15 is non-judicial 
punishment, and is essentially a slap on the wrist.
    Commanders do have broad authority and discretion in how to 
respond to rape. But simply giving an Article 15 will not deter 
such crimes, and it sets the tone that such crimes will go by 
essentially unpunished.
    There were people who were supportive of me in command 
positions, and they were fantastic. But it is actions like that 
do set the tone as well.
    The most important thing to note about the response of 
commanders and personnel is that I as the victim made others 
feel more uncomfortable than he did as the perpetrator because 
I stood up and said something.
    My recommendations. I recommend the following five actions 
be undertaken as appropriate by the administration, the 
Department of Defense and Congress.
    One, seriously review the SAPRO program in each branch of 
service and at the academies. Real change is needed to ensure 
that sexual assault prevention programs do more than minimally 
address the issues.
    Two, change the SAPRO policy so that civilians can make a 
restricted report in sexual assault cases. This is an extremely 
important change that needs to be made as soon as possible. We 
need to be afforded the same protection as those in the 
military.
    Three, standardize the SAPRO program DOD-wide, so that 
victims are cared for around the world in the same way. Create 
a standardized training program and continue training for all 
SARCs and VAs DOD-wide, so that services are consistently 
rendered to those in need, no matter where they are.
    I would also recommend creating and maintaining an e-mail 
list of all SARCs and VAs to assist in training and 
dissemination of program updates.
    In addition, civilian resources, such as the National 
Sexual Assault Hot Line, should be utilized as a supplement, 
though not a replacement for military assistance and education 
and the use of said resources should be included in all 
training.
    Fourth, reevaluate and update the prevention portion of 
SAPRO. Prevention starts with accurate and useable knowledge. 
The current prevention program is insufficient and does little 
to keep this crime from occurring. New programs should be 
implemented that incorporate best practices from the field and 
content focused on prevention.
    Further, there should be an emphasis on training everyone, 
from senior commanders to incoming personnel, on issues 
surrounding sexual assault and prevention. This training should 
be different every year, and designed to engage attendees who 
have to meet yearly training requirements on the subject.
    Also, mental health professionals need to be trained to 
deal with this issue specifically, so that they meet the needs 
of the victim in a military environment with sensitivity and as 
enlightened professionals. You should take into account common 
misconceptions, such as who is responsible for rape.
    Additionally, detailed information should be made available 
to the general population on military installations regarding 
SAPRO confidentiality and other policies and services. While I 
knew a SARC existed, even knew him personally, I knew very 
little about the SAPRO program when I needed help. It took 
another friend telling me how to get in touch with the SARC to 
get the help I needed. Knowledge is connected to empowerment, 
and the more people know, the more likely they will be to get 
the services they need, or tell someone and ensure their rights 
are being addressed.
    Fifth, enact reforms such as those proposed in H.R. 3990, 
the Military Domestic and Sexual Violence Response Act, or 
other similar legislation, which would enhance protections for 
civilians and military personnel stationed around the world. 
All those who serve this country, both military and civilian, 
deserve to be protected while rendering their service.
    I would like to close with an observation. I was recently 
in Poland, and while there I went to Auschwitz. While walking 
through the expansive camp, wondering how it was that so many 
people came to be murdered in that place, it occurred to me, 
the most egregious human rights violations have been one at a 
time. And while rape and mass murder are two very different 
things, they have something in common, in that they are the two 
most violent crimes, and they violate the basic rights of 
individuals.
    We can make ourselves overlook one individual rape, even 
blame the victim. But it is only when you start adding them up 
that you see what really happened. There are about 300 million 
people in the United States today, 150 million of them are 
women, and according to RAINN, 1 in 6 of these women have been 
sexually assaulted. That equates to tens of millions of victims 
in the United States alone. And they happen one at a time. 
Ultimately, you have to protect each individual victim in order 
to protect the group, and that is what I am asking you to do, 
to protect all of us.
    The system is broken, and it is time that more significant 
changes are enacted and that commanders are held accountable 
for the actions of those beneath them. The military has come a 
long way in the last 10 years in dealing with sexual assault, 
but much work remains. Women, both civilian and military 
employees, serve this country honorably and should be 
respected, not marginalized. Understand that I have the utmost 
respect for the military and I appreciate the service of those 
that have answered their Nation's call to duty. I understand 
that most people serve with honor. But that does not negate the 
fact that there is a very large problem that must be dealt with 
effectively and decisively if we are to create a better 
military for the future, where women, both military and 
civilian, can serve their country without having to fear the 
people they serve with.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you for your time and consideration. This concludes my 
statement. I welcome your questions at this time.
    [The prepared statement of Ms. Torres follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Ms. Torres, thank you very much for your 
statement. We know that was not easy, but it certainly was 
compelling and helpful, I think, in the suggestions that you 
gave. We look forward to the questions and answers.
    Ms. Lauterbach, you are recognized.

              STATEMENT OF MARY STEINER LAUTERBACH

    Ms. Lauterbach. Good morning, Chairman Tierney, Congressman 
Shays and members of the panel. Thank you for this opportunity 
to appear before you today to offer testimony on sexual assault 
in the military. I have submitted my written statement to the 
committee and I will just give a short summary now.
    My name is Mary Lauterbach. I live in Vandalia, OH, just 
outside of Dayton. With me today is Merle Wilberding, an 
attorney who represents our family and is a former member of 
the Army's Judge Advocate General Corps.
    I am the mother of Lance Corporal Maria Lauterbach, the 
pregnant Marine from Camp Lejeune who was murdered in December. 
The bodies of Maria and her unborn child, my first grandchild, 
were later found buried in a shallow fire pit in the back yard 
of fellow Marine Corporal Cesar Laurean. Seven months before 
her murder, Maria had filed a rape claim against Laurean.
    I believe that Maria would be alive today if the Marines 
had provided a more effective system to protect the victims of 
sexual assault, a more effective support program and more 
expeditious investigation and prosecution system.
    Today I would like to share with you the changes that I 
believe need to be considered for the military. I believe the 
military needs more effective security measures, more effective 
victim advocates, more effective programs for sexual assault 
victims, and finally, much more expeditious prosecutions.
    By more effective security measures, I mean there should be 
an absolute right to base transfer. I also mean that military 
protective orders should create absolute physical separation 
and not just mandate separation between individuals. The victim 
should not have the burden to connect the dots between 
incidents of harassment and the rape claim, and the victim 
should not have the burden to generate evidence for the 
command.
    By more effective victim advocates, I believe we need a 
study of the effectiveness of the victim advocates in the 
military compared to victim advocates that are in civilian 
society. Based on my observations, my conversations with Maria 
and our conversations with many other victims and mothers of 
victims, too many victim advocates are merely victim listeners. 
I believe a victim advocate needs to be more proactive. Victim 
advocates need to have clear authority to act independent of 
the chain of command.
    By more effective victim programs, I mean the military 
needs to actively enroll victims in proper trauma treatment 
programs, education programs, and rehab and training programs. 
I know, I have seen the military, the Marines' Power Point 
program where they acknowledge the results of sexual assault 
trauma syndrome. But I in no way believe that it is effectively 
respected or practiced in the field.
    By more expeditious prosecutions, I mean that the victims 
of sexual assault should not be left to twist and turn while 
the claim is being prosecuted or dismissed, especially because 
that time period is the period of the greatest risk, threat, 
intimidation and physical harm to the victim. It should not 
take 8 months to convene an Article 32 hearing on the claim, as 
it did in Maria's case.
    I also mean more effective use of DNA data. While I 
understand that there are arguments of constitutional privacy 
against unrestricted use of DNA data in criminal 
investigations, I believe that the military should authorize 
the use of DNA data in the same way that fingerprints are 
authorized, or at least make DNA available for felony 
investigations.
    Maria will always be a hero to me. Maria is dead, but there 
will be many more victims in the future, I promise you.
    I am here to ask you to do what you can, to help change how 
the military treats victims of crime and to ensure that the 
victims receive the support and protection they need and they 
deserve. Thank you for your time and attention.
    [The prepared statement of Ms. Lauterbach follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Ms. Lauterbach. We appreciate that 
very much.
    We are going to have some questions here, we are going to 
try to strike a balance between being sensitive to how 
difficult it is for both of you to courageously testify and 
respond while at the same time giving Members an opportunity to 
delve further in, because your information is valuable to us.
    So I am going to start by asking my colleagues if they have 
questions. Mr. Welsh? We customarily go 5 minutes for every 
Member here.
    Mr. Welch. I don't have questions. I just would like to 
thank Representative Slaughter and Representative Harman, whose 
testimony was really compelling. But then I really thank you, 
because we certainly appreciate how difficult it is to come 
here in a public forum and to share what is an intensively 
private and traumatic experience. What we fully appreciate is 
that you are doing it for other people. You have sisters who 
are in harm's way, and I think the way Representative Harman 
put it, quite nicely, the ideals that you went in to provide 
service to your country are being violated when your country is 
not standing behind those ideals when people are victimized by 
ones not so honorable as you.
    So I just want to thank you. It is amazing, in Congress, 
some of the people that you meet. I have been here 2 years, not 
very long, but you are two of the most extraordinary people I 
have met in Congress. And I say that having been seated at the 
table where you are, Secretary of Defense, the Secretary of 
State, but I will take you.
    Mr. Tierney. Mr. Shays.
    Mr. Shays. I would like to yield to Mr. Turner.
    Mr. Tierney. Mr. Shays yields to Mr. Turner. Mr. Turner.
    Mr. Turner. Thank you. Thank you, Mr. Chairman, thank you, 
Ranking Member Shays, for your holding this hearing. I want to 
thank both of you ladies for being here.
    Ingrid, we just really appreciate your coming forward and 
telling your story. Because you are not just giving us the 
information of what occurred, you are also providing us some 
incredible opportunities for solutions. We appreciate that you 
stood up and did the right thing. You did it because it was 
right, and we are sorry for everything that you went through in 
standing up for justice.
    Mary, every time I hear you tell the story, I am always so 
amazed at your strength and the insight that you give us. One 
of the contexts, I think, that is absolutely incredible about 
this, when we talk about DOD and the fact that they are not 
responsive, frequently we think that surely, DOD will get it by 
now. But they don't.
    And I want to share a portion of a letter that I shared 
with the chairman and the ranking member that I received from 
the Marines inquiring about Maria's case on behalf of Mary. We 
had put together a number of questions concerning the 
circumstances of the investigation surrounding Maria and what 
occurred.
    I sent it to the Commandant of the Marines, James Conway. 
And the response that I got back officially from the Marines 
was alarming. We had asked them, we had a sense that they 
really had not understood the threat that Maria was facing when 
she came forward and made her allegations of rape. So we asked 
them the first basic question of, isn't rape inherently a 
violent crime, and they of course answered back with the 
statutory definition of rape, which includes violence.
    And then we said, well, if that is true, certainly relate 
that to these circumstances. And they told us back that Maria 
had reported one sexual encounter, which they alleged was 
consensual, another which she had alleged to be rape. And then 
they wrote this sentence, which I want to read, which I think 
encapsulates what we are all concerned about. They wrote 
``Lauterbach never alleged any violence or threat of violence 
in either sexual encounter.'' I don't know how DOD could ever 
write a sentence like that with this issue. How can a rape ever 
not be violent, and the reporting of it certainly is a 
reporting of violence.
    So that comes to the whole issue of what happens when a 
rape is reported and what are the obligations of DOD for the 
protection of the accuser, when they come forward and make an 
allegation of rape. Mary, you have said that certainly, the 
issue of how the investigation was handled impacted Maria's 
safety. That is one of my first questions to you, is, can you 
expand on your concerns about how the investigation was 
handled, and also how the investigation was handled once Maria 
came up missing?
    Ms. Lauterbach. Certainly. One of my big concerns is, as I 
had mentioned before, it was on Maria to connect the dots. Here 
you are looking at a teenage girl who doesn't understand really 
the way the world works. She makes this complaint at my urging. 
She had waited a month to come to me. I said, it is important 
for you to make your complaint. So she does, and all of the 
actions from the beginning led one to believe that they just 
didn't believe her.
    Unfortunately, Maria did become pregnant. She became aware 
of it at the end of June, beginning of July. And shortly 
thereafter, her car was vandalized. And they described it as 
being keyed, but really it was screwdrivered. There is a huge, 
thick white mark from the front door to the end tail light. It 
was clear someone was making a statement.
    She reported it, the Marines dismissed it. Within a couple 
of weeks, she was getting something out of her trunk at 
twilight. They yelled her name, she turned around, she got 
punched in the face. She was very afraid at this point. She 
once again went and reported it, they said, can you identify 
the voice, she said, no, I am not certain who it is. They said, 
well, we can't link it with your sexual assault accusation, so 
too bad.
    Maria had asked, she goes, I would like to be transferred 
from Camp Lejeune. They said, don't bother, it is not going to 
happen. Again, they said that at any time, Maria never 
indicated being afraid of violence. This simply was not the 
case. So we go forward, Maria could tell that her rape 
accusation was going nowhere. I spoke to her on December 14th, 
3 o'clock in the afternoon. She was very upset, because she 
said, Mom, they are making me go to a Christmas party again 
tonight, and this guy is going to be there. And I said, that is 
the craziest protective order I have ever heard of. She said, 
well, I have to go. So we decided she was just going to show 
her face and leave.
    It was about 2\1/2\ hours later, when I walked into my 
home, her housemate called me on the phone. There is a note 
here from Maria, she says, I can't take it any more, sorry for 
the inconvenience, suggesting she was leaving. But this was 
completely, and I was going to be seeing her, go to visit her 
within a couple of days. It was completely incongruous with any 
conversation we had ever had. Her roommate asked me to wait to 
report it to the Marines, so we wouldn't get her in trouble in 
case she showed up that weekend.
    It was reported on Monday. I talked to them, got the name 
from her housemate, reported it Tuesday morning. They 
immediately said, well, we don't do anything about this. We 
can't even report it to the civilian authorities. So they gave 
me the phone number for the police. SO I went ahead and pursued 
it actively, talking to people. They knew I was terribly 
concerned. Maria was chronically nauseous. She was very sick, 
she was developing gestational diabetes, having early 
contractions, 8 months pregnant. January 15th was consistently 
her due date.
    I didn't know what happened, I thought maybe she was in a 
diabetic coma. I didn't know. But by December 21st, they found 
her cell phone, someone had recovered it from the side of a 
highway. At that point, I knew it was a violent end, because 
she would never have thrown her cell phone away like that.
    That afternoon, a Lieutenant Colonel from the Marines, who 
was in charge of the prosecution of her rape accusation, called 
me, saying, she is on unauthorized absence, do you know where 
she is? This investigation is going to fall apart, and she is 
our key witness. I said, do you think this could be a 
coincidence? Has anyone checked this guy? Has anyone talked to 
him? We are really worried, do you know where he is?
    And she said, he is accounted for. And I said, you need to 
talk to him. After that, she quickly got me off the phone. I 
said, I am scared to death, I think harm has come to her.
    In the reports from the Marines, they said that at no time 
did the mother indicate concern of violence. That simply is not 
the case. Clearly, she did not followup on my concerns, because 
Maria's car was parked in front of his house for a few weeks 
through this whole process. No one even bothered to drive in 
front of his home.
    And then as time goes on, her first sergeant, First 
Sergeant Jordan speaks to me, and she said, even after 30 days, 
we don't look for them. It is too bad. After I reiterated my 
concern, she is going to have her baby at any time now, 
something is really wrong here, just the level of lack of 
concern in which she was going away, it was dramatic.
    Mr. Tierney. Thank you very much.
    Ms. Torres, I do want to ask one question. You indicated 
you have been on three bases, in three branches of the service 
after the incident. In each of those bases, did you find the 
commandant to be insensitive or less than informed or less than 
trained or was it only in some?
    Ms. Torres. The command element or the SAPRO program 
itself?
    Mr. Tierney. Let's deal first with the command element, and 
then we will deal with the SAPRO.
    Ms. Torres. In Korea, I thought the commander, the wing 
commander and his deputy were wonderful. They were very 
personally supportive of me and the issue. I really didn't deal 
with the commander at Japan. I was TDY there for 2 months, and 
so really was just seeking services. I was just passing 
through.
    In Germany, the commander didn't really know about it. He 
was my neighbor and friend, but no, there was nothing.
    Mr. Tierney. How about SAPRO?
    Ms. Torres. In Korea, it was actually, the response program 
seemed very established, I imagine through frequency of use, 
especially at Kunsan. The SARC was extraordinarily knowledge 
and helpful and really went out of his way to help protect me, 
to include getting the medical commander to agree to keep paper 
records on me rather than through the digital system in ALTA, 
so that, since the person who raped me was a doctor, he would 
have immediate access to all of my records at any time with 
little supervision or ability of anyone to control that. And 
again, because I had been diagnosed with PTSD, there were 
ongoing issues as well as the pending court-martial.
    So in Korea, the response portion was actually as put 
together as it could be at Kunsan. And again, I think a lot of 
that had to do with the specific SARC who was there, he was 
wonderful. But even that, out of the three, four SARCs that I 
dealt with, all of them were male, which is OK in some 
circumstances, but certainly not for everyone. In Japan, the 
SARC had very little knowledge of the program he was leading 
and was asking me questions about the process and things that 
needed to be done and how to have them done, which I thought 
was not useful, really.
    I tried to be seen at the clinic there. Again, they wanted 
to put me on medication for the PTSD. And the doctor at the 
clinic, the psychologist refused to see me and keep paper 
records, which, with the pending court-martial, my records just 
could not be available to the perpetrator. There was no 
understanding of that. And even though this had been approved 
by higher levels than this particular officer, I was still left 
without care.
    In Germany, the SARC, again, he was excellent, but I found 
the victim advocate situation to be troubling. In the Air 
Force, my understanding is that victim advocates are 
volunteers, they want to be there. Oftentimes they have been 
through this experience themselves. They are not just there to 
listen, really, they have a better understanding of what is 
going on. Whereas, in the Army, and I believe this might be an 
Army-wide policy, victim advocates are appointed by their unit. 
And while at Mannheim, they had tried to put together an 
understanding that if you don't want to be the victim 
advocates, we will find someone who does, but I don't know that 
is a policy everywhere.
    And the mental health care that I received in Germany was 
quite insufficient. During intake, when I went to go in, and 
this was all related to the assault, during intake, the doctor, 
the psychologist didn't listen to me. She kept calling me 
Sergeant Torres, which is funny, as I am not only not a 
sergeant, but not in the military. And I had another 
psychologist tell me, this was days before I went back for the 
court-martial, I had a psychologist tell me that I was acting 
like a baby, and if I wanted to learn how to act like an adult, 
he would be happy to work with me.
    So there was a significant lack of understanding about 
PTSD, its effects on an individual's life. And this is 
something that will affect me for the rest of my career. I have 
to maintain security clearance, and every time that I do, as I 
am sure most of you know, this issue of PTSD will come up, as 
well as all of the notes that these psychologists and doctors 
have made that were not as professionally addressed as they 
should have been.
    Mr. Tierney. Thank you. Thank you very much.
    Mr. Braley.
    Mr. Braley. I want to thank the chairman, and I also want 
to thank Ranking Member Shays, for their leadership on this 
issue. I want to thank my colleague, Mr. Rogers, for his 
ability to help demonstrate the bipartisan nature of this very 
important issue.
    We have a lot of hearings in this committee room that cause 
my blood to boil, but I have to tell you, nothing has angered 
me more than what I hear today. I want to start by telling both 
of our witnesses how grateful I am for your bravery and your 
courage and for your willingness to share these stories.
    Ms. Lauterbach, my father enlisted in the Marine Corps when 
he was 17 and served on Iwo Jima. It was one of the defining 
experiences of his life. And I am just ashamed at what you told 
us today. Mr. Rogers, I hope you have the ability to introduce 
Ms. Lauterbach to the Commandant of the Marine Corps, so she 
can ask him, wake up.
    I want to share with the committee a story that appeared in 
yesterday's Dubuque Telegraph Herald. I am proud to represent 
the city of Dubuque. My wife grew up in Dubuque. The story 
reads, ``A bagpipe burst through the silence at St. Rafael's 
Cathedral in Dubuque. U.S. Army Second Lieutenant Holly 
Wimunc's military comrades carried her coffin on their 
shoulders Tuesday, taking slow, heavy footsteps. The crowd was 
dotted with crisp, green military uniforms whose owners turned 
to watch the slain soldier's children clutch their father's 
hands as they walked to the front pews. The fallen soldier was 
laid to rest at Mt. Olivet Cemetery. Military funerals honor 
the lives of young men and women who were taken too soon. For 
soldiers who have died in combat, their loved ones are well 
aware of the ultimate cost of service, knowing in the back of 
their minds that the day could come, however piercing their 
grief may be. But Holly Wimunc wasn't killed in combat. Police 
investigating her death allege her life was taken by a fellow 
service member, a Marine who also happened to be her husband. 
Wimunc died on July 9th, brutally murdered in her own home, 
according to investigators. Her estranged husband, Marine 
Corporate John Wimunc, 23, was charged with first degree 
murder, accused of killing her and dismembering her body, which 
was discovered burned in a shallow grave in North Carolina.''
    This is not an isolated incident we are talking about. I 
have represented victims of sexual assault, sexual abuse and 
domestic violence. I can tell you that unless the people who 
are in charge of enforcing policy understand it and believe in 
it to the core of their being, nothing is going to change, we 
will continue to have tragic hearings like this. It is one 
thing to have a policy on paper. It is one thing to have a 
Power Point presentation. But unless commanding officers and 
everyone in the chain of command believes at the core of their 
being that these are important priorities that need to be 
communicated to every member of our armed service and every 
civilian employee who has contact in that sphere, nothing is 
going to change.
    And when you talk about victims advocates, Ms. Lauterbach, 
the No. 1 priority for any victims advocate, dealing with a 
rape victim, is ferocious independence in advocacy. When you 
have a chain of command structure that makes those members 
responsible to have their careers reviewed by people who may be 
upset with that ferocious advocacy, you have a problem. So I 
welcome your insights, and I look forward to working with the 
committee in addressing that problem.
    With that, I will yield back my time.
    Mr. Tierney. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Ms. Lauterbach, I am sorry for your loss.
    Ms. Lauterbach. Thank you.
    Ms. McCollum. Ms. Torres, I am very sorry for what happened 
to you. But I do want to thank you for coming forward today. 
Because behind you in this room are many women, all around this 
country, whose story you are also sharing with us. I would say 
that I sent a letter to Secretary Rumsfeld when this, when the 
incidents in Iraq were becoming far too frequent occurrences in 
the press. And you know for every one in the press, I can't 
even imagine how many more aren't being reported.
    I said, where is our zero tolerance policy toward sexual 
harassment, violence and gender discrimination? Took a while, I 
finally got a letter back, it was one line. Secretary Rumsfeld 
told me he was looking into it.
    There has to be a zero tolerance policy, and you have my 
commitment to work with you and this committee to make sure 
that commitment becomes a reality as well.
    Thank you, Mr. Chair.
    Mr. Tierney. Thank you, Ms. McCollum. We are pleased to 
have with us this morning as well Congresswoman Susan Davis, 
and Congresswoman Jane Harman. Although they don't sit on this 
subcommittee, we are honored to have them with us. Ms. Harman, 
would you like to ask some questions?
    Ms. Harman. Thank you, Mr. Chairman. I thought maybe Susan 
Davis should go first, since she hasn't had a chance to say 
anything.
    Mr. Tierney. That is fine. We generally go by order of 
appearance.
    Ms. Harman. I appreciate that.
    Mr. Tierney. You defer to Ms. Davis.
    Ms. Davis, do you have some questions?
    Ms. Harman. And she chairs the Personnel Subcommittee of 
the Armed Services Committee. So I am very excited that she is 
joining this hearing.
    Mr. Tierney. As are we. Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman, and thank 
you to my colleague, Ms. Harman. I was at another hearing, but 
I have read your testimony. I especially, Ms. Lauterbach, I 
know that we had a chance to meet. I appreciate that time we 
had together. And I certainly as well am very sorry for your 
loss. But I believe that you are going to make a difference for 
other women and men who are the victims of sexual assault and I 
appreciate that support.
    Ms. Torres, as I read your testimony as well, I certainly 
was touched by that, as also a social worker and someone who 
knows that many times, it is our personal experiences that lead 
us into doing such important work. You are certainly part of 
that, and I thank you very much for bringing your story and 
your experiences forward, along with your skills. Thank you 
very much.
    I wanted to begin, Mr. Chairman, thank you very much for 
having this hearing and for bringing it to additional 
attention. We certainly have been working on these issues. 
There are a number of individuals that have been, and the 
Military Personnel Subcommittee will continue to do that. But I 
want to broaden that, so I am delighted that you are bringing 
attention to it and helping us all. Because there are many 
tragic stories out there. We deal with this in our district all 
the time. So it is very important that we do that.
    I know that there have been some refinements even included 
in this year's Defense Authorization Bill. Congressman Loretta 
Sanchez and I, Representatives Cummings and Castor included in 
the bill a greater mandate for visibility over sexual assaults 
by creating a comprehensive data base for tracking and analyses 
that is just the tip of the iceberg, we know, but it is 
important to have that kind of tracking in the data base.
    One of the issues, Ms. Lauterbach, that you brought to me, 
and that we will be having additional hearings and work on, is 
the victims advocacy support. It is the issue that you have 
been talking about today. One of the concerns is whether there 
is perhaps a different way to even organize this in a different 
kind of a role for someone who is playing that. I think that we 
have gone to a certain point, and that is admirable. I really 
commend the Department of Defense in creating the position, but 
I think what we have learned is that the position doesn't have 
enough authority in order to be able to help people to get the 
kind of resources that they need, and to really hold people 
accountable. I think that is the key here.
    So I think in the next hearing as well, we will be looking 
at, is there a different way to structure this, is that the 
problem? Is it also training? Is it not having the status for 
that position that is required? I think it is a very important 
role that people are playing. And I think as you have testified 
to the fact that it isn't one that has resonated.
    Could you speak to that particularly? I know this is 
difficult. If you were to organize this differently, what is it 
about the position that you would really like to see changed? 
For both of you, and Ms. Torres as well, because you have been 
in that position.
    Ms. Lauterbach. In particular, I think that the victim 
advocate, as Mr. Braley had addressed before, it needs to be 
outside of the chain of command. In Maria's case, it was 
someone who had direct authority over her. And as he was 
saying, there is a real fear that, oh, if I am being too 
cooperative or sympathetic, it affects my career. They need to 
be completely outside of the chain of command. That is terribly 
important.
    As I had said before, we have to remember, so often these 
are teenagers who are being dealt with. They don't understand 
their rights. The victim advocate needs to be aggressive in 
encouraging these young ladies, and some men, to exercise their 
rights instead of discouraging them from doing so. So really 
acting as an independent advocate requires it being outside of 
the chain of command.
    And another important part about the victim advocate, they 
need to be proactive. Again, in Maria's case, she suffered two 
very direct attacks. And we were concerned at home. I had no 
idea the level of a lack of interest within her command 
structure. But if she had a true victim advocate, once she got 
punched in the face that second attack, they would say, we have 
to get you out of here, you have to go off base, be transferred 
to another base, as she had wanted to do. So a real sense of 
independence is critical.
    Ms. Davis of California. Ms. Torres, and forgive the 
repetition, because I am sure you have dealt with that. Ms. 
Torres, I am looking for, is there something besides being 
outside the chain of command? If that person is outside the 
chain of command but is not recognized as having any authority, 
then it is perhaps not going to make that difference.
    Ms. Torres. Having seen the differences in, the way the Air 
Force structures it, at least in the locations that I was at, 
the victim advocates were a group of volunteers. So it wasn't 
each unit having a specific victim advocate. Because again, 
then you wind up having to work with the victim advocate who is 
part of the unit and you both have the issues of the unit 
affecting you. Whereas my experience with the Air Force was, 
there was a group of volunteers and you could pull the most 
appropriate one for the individual.
    As a civilian, it didn't matter if my victim advocate was 
an enlisted personnel or officer personnel, it didn't matter to 
me. The most appropriate person for the job. The biggest thing 
I could say, really, is training. Victim advocates outside of 
the unit, I wholeheartedly support that. I think that is 
imperative to get assistance.
    But training, I did feel that even though I had some 
fantastic victim advocates, it was the SARC who was the driving 
force behind all of the assistance that I got, all of the 
protections that I received. He went out of his way to protect 
my medical records. All of that happened with the SARC. And 
that is the person that tends to have a lot of that control.
    So the victim advocates were helpful in that they did go to 
doctors' appointments with me. I had no desire to be in the 
clinic by myself. They helped arrange it so I was often seen at 
the end of the day when no one else was there. And when you are 
deploying and working with the military, it seems like you are 
in the clinic all the time, you have to get shots, you have to 
go to the clinic. It is a never-ending saga.
    So I think training is probably the most critical. But also 
maybe even re-examining what the victim advocates do. Because 
again, it was the SARC that was the driving force, not so much 
the victim advocates. I don't know if that is just different 
between the Marine Corps or the Navy and the Army and the Air 
Force, because the programs are all different in all the 
branches of service. So some of that standardization is a 
little bit hard to really address, I think.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Ms. Davis.
    Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. Thank you again for 
holding the hearing, and thanks to these two witnesses for your 
enormous courage and concern for those who are still out there 
serving in harm's way in more than one sense. As a mother and a 
grandmother, I can barely hear these stories. I can only 
imagine how I would feel if my own daughter called, as yours 
did, or experienced what you did. Fortunately, that has not 
happened. But I think the pain on the face of everyone in this 
audience and the pain on the face of every Member here 
listening to you is evident. If that is any consolation, please 
know that we care a great deal and that we are in a position to 
help.
    The question I have relates to something that Ms. Torres 
said in her testimony. You said that all of the people who 
intervened after your rape were male. When I was at the West 
Los Angeles VA, at this extraordinary women's clinic, one of 
the things they told me was that they were a women only clinic. 
All the physicians and all of the aid givers were female, 
because they had discovered that the only intervention that 
truly worked for most women who have been seriously assaulted 
and raped is if women provide it. So I want to ask you to 
elaborate, both of you, on what difference it would have made 
in both cases, if the people you had contacted were women.
    Ms. Torres. Well, I think it depends entirely on the person 
who has been assaulted. In my case, when I initially got in 
touch with the SARC, he was someone I knew. Kunsan is a very 
small installation and the officer corps is quite small as 
well. That is kind of where we fall into the structure. So I 
had known him, it wasn't as uncomfortable for me to have a SARC 
who was male, because I knew him. And he was a wonderful 
individual who really went out of his way to be helpful and 
non-threatening. He had a very clear understanding of the 
problems and knew that him being male was also an issue. He was 
fantastic.
    And I can't really say, because when I went in, that was my 
experience. Then it just kept being that way.
    I think it depends on the individual. I know a lot of women 
who would be very uncomfortable with that, and it would be 
completely unacceptable. Had I gone into the program and not 
known the SARC, I am not sure I would have been comfortable 
with it, especially in that environment. At Kunsan, I think 
there are only like 400 women or something. It is very small.
    There definitely is something to be said for that. I still 
can't see male doctors. I just refuse. And so there is 
definitely, the individuals doing the rape kits, there is no 
excuse for anything other than a female doctor in those 
situations. Probably also the mental health providers, in my 
skills, or the mental health clinic, whatever they call it in 
each branch of service, I really do feel that is imperative, 
just for sensitivity and ease of being able to talk.
    But I don't know the statistics on the number of SARCs who 
are male versus female. I am not really sure what those might 
be. But of the four that I knew, they were all male, yes.
    Ms. Harman. Thank you.
    Ms. Lauterbach, do you have any observations?
    Ms. Lauterbach. I do know that Maria was more comfortable 
with female doctors. That is a fact. Though her victim advocate 
was a female, and a surprising number of the chain of command 
that she was in were female. And yet it was the chain of 
command effect that was the biggest part of the problem in 
Maria's specific case, because people were very concerned about 
their career and how that would affect them.
    Ms. Harman. Thank you for that answer. I know we need to 
move to the next panel.
    I would just observe that as we go forward and solve this 
problem, we need to be focused on what happens to the victim. 
That was something I said and something you both said. And 
what, who she interacts with when she comes forward to say what 
has happened to her. But we also do need to focus a lot on the 
chain of command. The training, at least, that I think we all 
think is necessary, and the prosecutions that need to follow 
the commitment of these crimes should not just be for the 
person who has perpetrated the crime, but should be against 
those who have helped that person cover up the crime. And we 
need to understand it in a command structure like the military. 
It starts at the top. And the responsibility goes way up to the 
top.
    That is why, in closing, let me just say, Mr. Chairman, I 
have been comforted by conversations I have had about this 
issue, particularly with Secretary of the Army Pete Geren, who 
gets it, and has made some moves in the Army to feature this 
issue and help to draw bright red lines. That is what it is 
going to take. And Mike Mullen, too, feels an enormous 
responsibility here.
    So I hope the military will do more. But I know this 
committee and this Congress must do more. We cannot let this 
epidemic, and that is what I think it is, of rape and violent 
assault, continue.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you. Thank you and Ms. Davis both for 
your presence and your participation this morning.
    Mr. Shays, you are recognized.
    Mr. Shays. Thank you. I would like to also concur. I thank 
Ms. Harman for participating and Ms. Davis, particularly given 
that this is legislation that would go through your committee, 
and we thank you for participating.
    Ms. Lauterbach, I want to first say to you that you come 
across as just a wonderful mother. And I marvel at your 
daughter's courage. The fact is, you were dealing with a 
Government agency, the military, that you had no way of knowing 
was the problem, and almost in a sense, the enemy. I hate to 
say it that way.
    I have been in public life 34 years. I meet people like you 
occasionally who decided that they are going to make a 
difference for someone else, so no one has to go through what 
you did. Your daughter is courageous, you are courageous, and 
our next panel is where we are going to start to begin to see 
some change. And I will speak to that in a second.
    Ms. Torres, you are extraordinarily courageous as well. I 
was saying to my colleague up here, sometimes we think that we 
have to have a courageous vote or do something that is tough 
politically. That is child's play compared to what you all are 
dealing with, and obviously what your daughter dealt with, Ms. 
Lauterbach.
    Ms. Torres, I am unclear about one thing that is sensitive, 
and I don't need a lot of detail, but I am unclear about your 
comment that you were unaware at the time that you were raped. 
I want to know, during the act, were you aware, did you realize 
afterwards? And then I want to know the actions you took right 
afterwards, or as soon as you could. I am just unclear of that.
    Ms. Torres. I had taken Ambien the night before this 
happened.
    Mr. Shays. That part I got.
    Ms. Torres. It was, I hadn't been taking it regularly, so 
the dosage was probably too strong. And I don't remember moving 
to my bedroom, I don't remember taking off my clothes. I have a 
few second memory of him being on top of me and that is it 
until I woke up the next morning.
    When I woke up the next morning, I was still groggy. Again, 
the Ambien was still too strong. And nauseous, I have to sleep 
it all the way off. When I had gone into the bathroom, there 
was a condom in the trash can, and that is when it all came 
together.
    Mr. Shays. And then that day did you report, a week later, 
a month later?
    Ms. Torres. This would have been a Sunday. I reported it on 
Monday to the SARC and OSI later during the week.
    Mr. Shays. Let me just respond. Thank you very much for 
that information.
    When we had our hearing in 2006, we realized that the 
second task force that was set up by Congress in 2005 had not 
had its full membership. And I am thinking that was stunning. 
Now to realize that it has never even met, now that it has its 
membership. I can't help but wonder, if they had met, if they 
had done their job, would you, Ms. Lauterbach, even be dealing 
with this issue. I just hope some heads roll, because they need 
to. This is not the first time, it is not the second, this is 
like the third time. When Beth Davis appeared before us, she 
was raped repeatedly. When she told the commanding officers 
that she was raped, she was forced out of the Academy for 
having sex. When she was testifying alongside folks from the 
U.S. Air Force Academy, they had never once apologized to her.
    So they gave a belated, begrudging apology to this woman 
for forcing her out because ``she had had sex.'' And the person 
who raped her had still been allowed to stay in the Academy.
    So I say that, Mr. Chairman, to say that I really hope 
heads roll. And I don't say that often. I was saying to Mr. 
Turner, where do we go? It is just unbelievable, the reluctance 
to deal with it. And his comment to me, if I could say it, was 
we need an outside change of command. In other words, Ms. 
Davis, I am saying this, I think we are reluctant to do that. 
But I think that you have to have a separate, independent body 
that deals with this. Because I don't think the military is 
capable of dealing with it. That is where I come down. And I 
just want to throw it out and have reaction to it. Because this 
is just--anyway. I yield back.
    Mr. Tierney. Thank you very much.
    Again, let me thank both of our witnesses here. I hope and 
I trust that the comments--Mr. Turner, did you want to say 
something else?
    Mr. Turner. Mr. Chairman, thank you. I appreciate the 
additional time. I don't have a question, but I did want to 
request. Mary Lauterbach has had a number of questions to the 
Marines that have not been answered. Our office has attempted 
to intervene and to get some of those answers. I would ask, if 
she would, in supplementing her testimony, if you could send to 
the committee the types of questions that you have been asking 
that you have not received answers to. I think it would be of 
interest to the committee, of areas where you have asked about 
her circumstances where the Marines are not being helpful.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    And again, thank both of you. We know it was very difficult 
and not a bit easy, but you stood up not only for yourself but 
for others in your circumstance, and I think it is incredibly 
important to them and to the country you continue to serve. So 
thank you very, very much. You are welcome to stay, if you 
wish, or to proceed. We appreciate your testimony and that 
concludes this panel. Thank you.
    We will take a minute to allow the third panel to be 
seated, then we will go from there.
    We will swear in the witnesses.
    [Witnesses sworn.]
    Mr. Tierney. Will the record please reflect that all the 
witness answered in the affirmative? Thank you.
    Mr. Dominguez, I notice that Dr. Kaye Whitley is not in her 
chair. Is it under your direction that she has not shown for 
testimony this morning?
    Mr. Dominguez. Yes, sir.
    Mr. Tierney. You directed her not to?
    Mr. Dominguez. I did.
    Mr. Tierney. Do you have an executive privilege to assert?
    Mr. Dominguez. No, sir.
    Mr. Tierney. Mr. Dominguez, this is an oversight hearing. 
It is an oversight hearing on sexual assault in the military. 
As such, we thought it was proper to hear from the Director of 
the Defense Department's Sexual Assault Prevention and Response 
Office, Dr. Kaye Whitley. Your own Web site states, ``SAPRO 
serves as the single point of accountability for Department of 
Defense sexual assault policy.'' Dr. Whitley has testified in 
Congress before, in fact, before this very subcommittee 2 years 
ago, also on sexual assault in the military.
    While we understand that you are involved with these 
issues, along with your vast other areas of responsibility, Dr. 
Whitley is the day to day person who coordinates all policies 
with the military service branches and other Federal agencies. 
For the sake of continuity, detailed responses to the 
Government Accountability Office's findings and recommendations 
and general sustained oversight from the 2006 hearing, we feel 
strongly that Dr. Whitley should be sworn in to testify in 
addition to you.
    If the head of the SAPRO office is up to the task of 
coordinating sexual assault prevention and response in the 
military, which is a huge undertaking, then surely she can come 
and speak for herself and answer questions directly from 
Members of Congress. The SAPRO office was created precisely to 
ensure that the Department of Defense and the military services 
would not follow the unacceptable mentality that led officials 
to circle the wagons and engage in cover-ups in the wake of 
Tailhook and Aberdeen.
    All of this is why we are so puzzled that the Defense 
Department, apparently you in particular, have gone to such 
great lengths to try to stop Dr. Whitley from testifying and 
speaking for herself at this hearing. We invited Dr. Whitley to 
testify at this hearing more than a month ago, on June 27th. 
Inexplicably, the Defense Department and you, apparently, have 
resisted. We were forced to issue a subpoena to compel Dr. 
Whitley to testify. Despite no claim of executive privilege, 
because none exists, the Defense Department appears to be 
willfully and blatantly advising Dr. Whitley not to comply with 
a duly authorized congressional subpoena, something that would 
put Dr. Whitley in serious legal jeopardy.
    As I said, these actions by the Defense Department are 
inexplicable. It is more than curious why the Defense 
Department is making every effort, including flouting a duly 
authorized subpoena, to stop Dr. Whitley from testifying and 
speaking for herself. It appears that there is disrespect, not 
only for the two women that preceded your testimony here, but 
for everyone who finds themselves in a similarly situated 
circumstance and for others who continue to be in the service, 
for the Government Accountability Office, which spent 2 years 
investigating this matter in an effort to help the Department 
of Defense comply with its congressional responsibilities and 
its own moral obligations, and obviously, it goes without 
saying, it shows contempt for this particular subcommittee and 
the full committee as well.
    We are going to be showing all of our options here in the 
face of this blatant disregard of the subpoena. I will be 
forced to seek a contempt citation at the next full business 
meeting of the committee, whether that will be against you or 
Dr. Whitley or both. We will take other appropriate action as 
may be there. But I think you have imperiled Ms. Whitley 
unnecessarily in that respect.
    Mr. Waxman, do you have any comments to make?
    Mr. Waxman. Thank you, Mr. Chairman.
    The Department's Agency, Sexual Assault Prevention and 
Response Office, SAPRO, that is the agency that is in charge of 
dealing with the sexual assault problems. We asked the 
Department of Defense to provide Dr. Whitley, who is the person 
in charge of this department, to come and testify. We were told 
that she wouldn't be permitted to come and testify, so we 
subpoenaed her.
    Notwithstanding that, she is still not here. And Mr. 
Dominguez, you said you instructed her not to come? What is 
your reason for doing that?
    Mr. Dominguez. Sir, in consultation with the Department's 
leadership----
    Mr. Waxman. Tell us who in the leadership? Who did you 
consult with in the leadership of the Department of Defense?
    Mr. Dominguez. Sir, I consulted with the Assistant 
Secretary of Defense for Legislative Affairs and the General 
Counsel of the Department of Defense. And----
    Mr. Waxman. And they told you not to let her--she is under 
your command, is that right?
    Mr. Dominguez. Yes, sir, she is my subordinate, and the 
point we are making here first is that she is available to the 
Congress and Members, and has been up here repeatedly on her 
own with her staff, unfettered, unmuzzled by us to provide 
whatever information she has and answer any person's questions. 
In this hearing format, we wanted to ensure and make the point 
that Dr. Chu, the Undersecretary of Defense for Personnel and 
Readiness, and I, are the senior policy officials accountable 
to Secretary Gates and to the Congress for the Department's 
sexual assault and prevention policies and programs.
    If you find the Department's response and provisions 
efforts fall short of your expectations, responsibility for 
that shortfall rests with me. For that reason, sir, Dr. Whitley 
was directed not to appear today.
    Mr. Waxman. That is a ridiculous answer. What is it you are 
trying to hide?
    Mr. Dominguez. We have nothing----
    Mr. Waxman. Let me speak. She is the one in charge of 
dealing with this problem. We wanted to hear from her. And 
despite a subpoena from a committee of Congress, you have been 
instructed by the Undersecretary or Deputy Secretary in charge 
of legislative affairs not to allow her to come? Well, and you 
want to come because you are in charge of this area and you can 
speak instead? Do we have to subpoena the Secretary to get 
people in the Department to come before us? We subpoenaed her. 
You have denied her the opportunity to come and testify and put 
her in a situation where we have to contemplate holding her in 
contempt. I don't even know if we could hold you in contempt, 
because you haven't been issued a subpoena.
    Mr. Chairman, the Department of Defense has a history of 
covering up sexual offense problems. We all remember Tailhook 
and the scandal and how the military tried to cover that up. I 
don't know what you are trying to cover up here, but we are not 
going to allow it. We are going to talk further as to what 
recourse we have. I don't know if we need to subpoena the 
Secretary and then hold him in contempt, Mr. Chu and hold him 
in contempt, you and hold you in contempt. Those are better 
options to me than to hold her in contempt when she is put in 
this untenable position when the line of command instructs her 
not to comply with a subpoena of the U.S. Congress.
    I don't know who you think elected you to defy the Congress 
of the United States. We are an independent branch of 
Government.
    Mr. Chairman, I am going to talk to you and Mr. Shays and 
Mr. Davis about what we do next. But this is an unacceptable, 
absolutely unacceptable position for the Department to take and 
we are not going to let it stand.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman and the chairman of the 
full committee.
    Mr. Waxman has the authority solely to issue a subpoena 
without the approval of any Member here, and he has every right 
to issue it at any time. But in this case, you have the 
chairman of the full committee, the ranking member of the full 
committee, the chairman of the subcommittee and the ranking 
member of the subcommittee, which is me, all in support. And I 
will cooperate any way whatsoever to get Ms. Whitley here. And 
I would ask Mr. Dominguez to reconsider his very foolish 
decision and encourage her to come. And if not, we will get her 
here some other way.
    Mr. Dominguez. Sir, I do want to say----
    Mr. Tierney. No, we don't want to hear from you right now, 
Mr. Dominguez. We are more than a little bit upset with you, 
and whatever this false notion of bravado or whatever of 
thinking you are covering up for something or for Dr. Whitley--
is she in the room today?
    Mr. Dominguez. No, sir.
    Mr. Tierney. She is not even in the building?
    Mr. Dominguez. She is not, sir.
    Mr. Waxman. Mr. Chairman, who is here to advise you on the 
details of that office and what they have done?
    Mr. Dominguez. I know the details of that office and what 
they have done, sir.
    Mr. Waxman. You do?
    Mr. Tierney. Well, let me tell you something, Mr. 
Dominguez. We decide who we want to have for witnesses at this 
hearing, we decide who the people are who are going to give us 
factual testimony and the ones that we want to hear from when 
we are investigating or having a hearing. So for now, Mr. 
Dominguez, you are dismissed.
    Mr. Dominguez. Thank you, sir.
    Mr. Tierney. We will proceed with the rest of our witnesses 
here, with the Army witness and the Government Accountability 
Office. And we will hear from the Defense Department and the 
witnesses we want to hear from at a future date and will take 
such action as we all deem is appropriate in light of your 
inappropriate action that you have taken.
    The remaining witnesses with us today are Lieutenant 
General Michael Rochelle. General Rochelle is the Deputy Chief 
of Staff of the U.S. Army for Personnel Management. He has 
served in the Army since 1972, and has a masters degree in 
public administration. The subcommittee felt it very important 
to have the perspective of the military services represented at 
this hearing, but recognizing, however, that it is too 
cumbersome to invite representatives from all of the different 
branches, we picked the largest service and asked them to 
testify. So General, we are greatly appreciative of your 
service and for your testifying today on behalf of the Army.
    Also we have with us Ms. Brenda S. Farrell. Ms. Farrell is 
the Director of the Government Accountability Office's Defense 
Capabilities and Management team, responsible for the defense, 
personnel and medical readiness issues. Before her current 
assignment, she served as acting director for GAO's Strategic 
Issues team, overseeing issues on strategic human capital, 
Government regulation and decennial census issues. Over her 27-
year career with the Government Accountability Office, Ms. 
Farrell has earned numerous awards, including one for sustained 
extraordinary performance. We greatly appreciate all the hard 
work that you have done and that you have done with respect to 
this particular project, as well as your team, and we look 
forward to hearing from you.
    The subcommittee wants to thank both of you for being here 
to testify. You have already been sworn in. I repeat just for 
your benefit that we have a 5-minute rule. The green light will 
go on, with about 1 minute left, the yellow light, then when 
your time is up, the red light, at which point we will ask you 
to wind down. We are not going to slam the hammer down 
immediately on that.
    Your testimony in its entirety will be included in the 
record at any rate, so we are going to ask you, General, if you 
would please proceed.

 STATEMENTS OF LIEUTENANT GENERAL MICHAEL D. ROCHELLE, DEPUTY 
CHIEF OF STAFF, G1, U.S. ARMY; AND BRENDA S. FARRELL, DIRECTOR, 
     DEFENSE CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

      STATEMENT OF LIEUTENANT GENERAL MICHAEL D. ROCHELLE

    General Rochelle. Thank you, Chairman Tierney.
    Chairman Tierney, Ranking Member Shays, Chairman Waxman, 
distinguished members of the committee, I thank you for the 
opportunity to appear before this committee today and to 
discuss the Army's efforts concerning sexual assault, a subject 
we feel very powerfully and strongly about.
    Even one sexual assault violates the very essence of what 
it means to be a soldier. And it is a betrayal of the Army's 
core values as well. On behalf of the Secretary of the Army, 
the Honorable Pete Geren, and Chief of Staff of the Army, 
General George Casey, I can assure you that the Army takes 
sexual assault very, very seriously.
    The Army's comprehensive sexual assault prevention and 
response program is every leader's responsibility. And 
explicitly, it is a responsibility of every commander. It is 
formalized in Army regulation 600-20, in alignment, of course, 
with the Department of Army policy. The primary goal of our 
program is to create a climate where every soldier lives the 
Army values, thereby eliminating incidents of sexual assault, 
where soldiers feel they can report incidents when they occur 
without fear, knowing they will receive the help and care they 
so richly deserve, and where appropriate action will be taken 
against offenders.
    In executing their responsibilities, Army commanders ensure 
allegations are investigated, that victims are treated with 
dignity and respect and receive promptly the care they need. 
And commanders take appropriate disciplinary or administrative 
action. Army senior mission commanders, generally one or two 
star commanding generals of installations, hold monthly sexual 
assault review boards to provide executive oversight, 
procedural guidance and feedback concerning program 
implementation and case management.
    Following their initial pre-command course training, all 
new commanders receive localized sexual assault prevention 
response training after their assumption of command. Soldiers 
receive annual as well as pre- and post-deployment sexual 
assault prevention and response training, while our first 
responders, legal professionals, medical professionals, 
advocacy, law enforcement, to include criminal investigation, 
as well as chaplains, receive specialized initial and annual 
refresher training.
    Since November 2004, the Army has had a comprehensive 
training program for all levels of Army professional military 
education, from initial entry training all the way through our 
senior-most level of professional military education for 
commissioned officers, the Army War College. During our 
objective assessment of our program, we concluded our 
prevention efforts were insufficient, inadequate to the task. 
As we continue to work through and improve our program, the 
Chief of Staff and the Secretary are personally involved in the 
development of our Army's comprehensive prevention campaign and 
strategy. In the words of Secretary of the Army Pete Geren, 
``The goal of our sexual assault prevention and response 
program is to create a climate where soldiers live the Army 
values, thereby eliminating incidents of sexual assault. 
Soldiers must understand that they can report incidents when 
they do occur without fear, knowing they will receive the help 
and care they deserve. And leaders must ensure that offenders 
receive appropriate action.''
    I would like to conclude with a quote from a recent 
communique that Chief of Staff of the Army George Casey sent to 
every senior leadership active Guard and Reserve. Once again, 
``Sexual assault is a serious crime,'' he wrote, ``and has no 
place in our Army. It is incompatible with our Army values, 
undermines unit cohesion and prevents us from working 
effectively as a team. Despite our efforts to eradicate sexual 
assaults from the Army, they continue to occur at an 
unacceptable rate.'' And he concludes, ``Our soldiers, 
civilians and their families make tremendous sacrifices daily. 
They deserve to live and work in a community free from the 
threat of sexual assault. This is our goal, and all leaders 
must be dedicated to achieving it.''
    Mr. Chairman, Ranking Member Shays, distinguished members 
of the committee, again, I thank you for the opportunity to 
appear before this distinguished committee and I await your 
questions.
    [The prepared statement of General Rochelle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, General. We appreciate your 
testimony.
    Ms. Farrell.

                 STATEMENT OF BRENDA S. FARRELL

    Ms. Farrell. Thank you, Mr. Chairman.
    Chairman Tierney, Mr. Shays, members of the subcommittee, 
thank you for the opportunity to be here today to discuss GAO's 
preliminary observations on DOD's and the Coast Guard's sexual 
assault and prevention and response programs. My remarks today 
draw from soon to be completed work examining DOD and the Coast 
Guard's programs conducted at this subcommittee's request.
    As you know, sexual assault is a crime that contradicts the 
core values that DOD and the Coast Guard expect service members 
to follow, such as treating their fellow members with dignity 
and respect. Recognizing this, in 2004, Congress directed DOD 
to establish a comprehensive policy to prevent and respond to 
sexual assault involving service members. Though not required 
to do so, the Coast Guard has established a similar program.
    Now let me briefly summarize my written statement. My 
statement is divided into three parts. The first addresses the 
extent to which DOD and the Coast Guard have developed and 
implemented policies and programs to prevent, respond to and 
resolve sexual incidents involving service members. We found 
that DOD and the Coast Guard have taken positive steps to 
respond to congressional direction. However, implementation of 
the program is hindered by several factors. Those factors 
include inadequate guidance on how the program is to be 
implemented and deployed in joint environments; some 
commanders' limited support of the programs; program 
coordinators' hampered effectiveness when they have multiple 
duties; inconsistent training effectiveness; and sometimes 
limited access to mental health resources.
    The second part of my written statement addresses 
visibility over reports of sexual assault. GAO found, based on 
response to our non-generalizable survey administered to 3,750 
service members in the United States and overseas, that 
occurrences of sexual assault may be exceeding the rates being 
reported, suggesting that DOD and the Coast Guard have only 
limited visibility over the incidents of these occurrences. At 
the 14 installations where GAO administered its survey, 103 
service members indicated that they had been sexually assaulted 
in the preceding 12 months. Of these 103 service members, 52 
indicated that they did not report the sexual assault.
    We also found that factors that discourage service members 
from reporting a sexual assault incident include the belief 
that nothing would be done, fear of ostracism, harassment or 
ridicule and concern that peers would gossip about the 
incident.
    The last part of my written statement addresses the extent 
to which DOD and the Coast Guard exercise oversight over 
reports of sexual assault. DOD and the Coast Guard have 
established some mechanisms for overseeing reports of sexual 
assault. However, neither has developed an oversight framework 
including clear objectives, milestones, performance measures 
and criteria for measuring progress to guide their efforts. 
Further, in compliance with statutory requirements, DOD reports 
data on sexual assault incidents involving service members to 
Congress annually. However, DOD's report does not include some 
data that would aid congressional oversight, such as why some 
sexual assaults could not be substantiated following an 
investigation. Also why the Coast Guard voluntarily provides 
data to DOD for inclusion in its report. This information is 
not provided to Congress, because there is no requirement to do 
so.
    In summary, Mr. Chairman, while DOD and the Coast Guard 
have taken positive steps to prevent, respond to and resolve 
reported incidents of sexual assault, a number of 
implementation challenges could undermine the effectiveness of 
the program. Left unchecked, these challenges could undermine 
DOD and the Coast Guard's efforts by eroding service members' 
confidence in the programs, decreasing the likelihood that 
victims will turn to the programs for help when needed or by 
limiting the ability of DOD and the Coast Guard to judge the 
overall successes, challenges and lessons learned from their 
program.
    Our draft report is with the agencies awaiting comment on 
our findings and recommendations. We expect to issue our report 
in August. Thank you for the opportunity again to be here, Mr. 
Chairman. I would be pleased to take your questions.
    [The prepared statement of Ms. Farrell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you once again, thank your staff and you 
for putting the report together. I assume it is going to be a 
helpful tool, General, for the Army and for others to sort of 
look through this report. I think it also corroborates some of 
the testimony we heard from the two previous witnesses in terms 
of training, in terms of availability or access to services on 
that.
    Let me explore. The report is on the record, obviously, and 
it is pretty detailed. It speaks for itself in a lot of 
respects. But when we talk about data and the need for Congress 
as an oversight body and probably the DOD as well, to have data 
from each of the different services, currently some of that 
data is difficult to get, as your report indicates. What is it 
that could be done about that? I am going to ask the General if 
he thinks the Army would cooperate with releasing that or if 
the Army is one of the entities that is raising the objections, 
Ms. Farrell, that you note in your report.
    Ms. Farrell. The data in the report could be very 
misleading and very confusing for a number of reasons, besides 
the fact that we think that it is in complete. The data, for 
example, we have pointed out in our report that we issued in 
January of this year on the academies as well as the soon to be 
issued report in August about the use of common terminology as 
lacking. The services have different definitions of how they 
even define what they report.
    And we feel that OSD should make clear what type of data 
they are trying to collect. The data I think you are referring 
to specifically are the installation based data that we had 
requested at the beginning of our review. We thought that would 
be helpful in determining our methodology of which 
installations to visit, those that had few incidents versus 
those that had what would appear to be at a medium range and a 
high number. We did not have the benefit of such data to 
develop our methodology of where we would visit.
    And at this time you cannot do any trend analysis, either. 
So our point was not to pinpoint installations to say this is a 
bad installation, this is a good installation. It was to try to 
understand just what is working and what is not working. And 
that is one of the reasons why we would think installation data 
would be helpful to SAPRO, to the services, to share their 
experiences, to share what is working and what is not working.
    Mr. Tierney. Thank you.
    General, is there an objection from your branch of the 
service on providing that installation data?
    General Rochelle. No, sir, none whatsoever. In fact, the 
Army did cooperate, and it required us to crunch the numbers 
differently in order to be able to respond by installation. And 
we did so.
    If I may continue, Mr. Chairman, first of all, I applaud 
the value of the overall report, the GAO report. That was your 
basic question. It is useful. It gives us a way to see 
ourselves more clearly from the view of an outsider, which is 
always helpful. I don't envy the GAO's task, however, in 
synchronizing the multitude of ways in which the services right 
now look at themselves. That is a pretty huge task. We know how 
we view ourselves and how we slice and dice, if you will, the 
data. But it is inconsistent with how our sister services do 
so.
    But I would like to just conclude by saying, it is a very 
valuable report.
    Mr. Tierney. I think one of the reasons that we had the 
task force that was supposed to be set up, and this goes to 
another point the report makes, it was not started that year, 
is that would help the Department of Defense work with the 
different branches to try and get some conformity across all 
those branches. I am sure your branch would be cooperative with 
the others if they had some idea from this task force of what 
might be done to make sure that everything was the same or 
standard across all those. So we will get into that when we 
continue the hearing and we have the appropriate witnesses 
here.
    General, some of the comments that the witnesses made 
earlier were about training. They said there is some 
inconsistency and the report also indicated some inconsistency 
of the personnel that were dealing with victims on that. What 
is the Army doing to try and make sure, I know you talked in 
your opening remarks about the training being available. But 
obviously we have some real life circumstances here where 
people found that individuals were not as well informed as they 
might be on training.
    So what do you do on a regular basis to keep ramping up 
that training and to make sure it gets right down into each 
installation?
    General Rochelle. Mr. Chairman, thank you for the question. 
In addition to initial training, which we measure in terms of 
the number of ours, for every person going into the sexual 
assault prevention program, everything from the individual 
soldier whose training initially upon arriving at basic 
training might start at a 4-hour training session, orientation 
on reporting, orientation on, an introduction to the sexual 
assault coordinators and the victim advocates at that 
installation and unit level, it grows to the unit victim 
advocates at our deployable sexual assault coordinator, at the 
brigade level and above, to the installation SARC.
    Everyone's training is measured based on the 
responsibilities that they are given, of course. And then it is 
annually refreshed, and then refreshable by the individual 
via----
    Mr. Tierney. You indicated you are measuring that by hours. 
I am assuming that you also measure it somewhat by some more 
objective standard as to whether the victims advocates and 
whether the others, the SARC actually get it, whether they 
understand what they do. Do you have some other measures 
besides just putting in the time?
    General Rochelle. No, sir, that is not what I meant. What I 
meant to convey to the committee is that based upon the 
responsibilities of the information, we expand the training to 
meet the needs that individual will have to address in the 
unit, at the installation or as an individual soldier. And of 
course, productivity of the training is measured on the basis 
of assessments by the commander and also by individuals who are 
responsible at the unit level.
    Mr. Tierney. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General, it is my understanding that in the GAO 
information, where they did this survey of 15 installations, 
that one of the questions that they asked was, in the last 12 
months, have you received any sexual assault training. It is my 
understanding from that information that the Army and the Air 
Force posts are high, in the 80 to 90 percent range. My 
additional understanding is that the Marines, however, are 
barely over 50 percent, with Camp Lejeune being at 43 percent.
    I want to know if you find that information surprising.
    General Rochelle. If I find it surprising?
    Mr. Turner. Surprising. We talk about training, we talk 
about the efforts of it. So many times when Congress asks 
questions, we are given process answers of, we have a program 
on that. This information that we are receiving from GAO says 
80 to 90 percent of the people in the Air Force and Army report 
that they have received sexual assault training. The same data 
collection point for the Marines was just slightly over 50 
percent. But Camp Lejeune, again, there have been so many 
troubling instances, was it 43 percent? And I wonder if you 
find the statistics surprising.
    General Rochelle. Sir, I must admit I do.
    Mr. Turner. I appreciate that. I am going to put you on the 
spot one more time, General. If you were listening to the 
earlier testimony, when Mary Lauterbach was telling me the 
circumstances of what had occurred with Maria Lauterbach, there 
were a number of questions that needed to be answered by the 
Marines. I am going to ask you this question, because what I 
believe is part of the problem that we are dealing with here is 
a culture question. It is not one that you just put another 
program in place and it is going to be self-executing. I think 
there is a cultural issue that is a problem.
    So I wrote the Commandant of the Marines on March 11, 2008, 
and if you were listening to the testimony, you would have 
heard my reading of the response that I got back from General 
Kramlich that I am going to read for you also. It was, ``In 
answer to the question of doesn't a rape accusation inherently 
contain an element of force or threat?'' Their answer was, 
``Lauterbach never alleged any violence or threat of violence 
in either sexual encounter,'' one of which, in the paragraph 
above, they identified as allegedly being rape.
    Now, I have shown that to Members of Congress repeatedly, 
Members on the House floor, members of this committee. And I 
want you to know that everyone finds that response, this is in 
writing, with a letter dated March 8th, just shocking. Could 
you tell me your thoughts on that?
    General Rochelle. Sir, I would not attempt to put myself in 
the position of the Commandant or anyone who may have assisted 
in crafting that letter. I don't know what was intended by that 
phraseology, so I am not sure I could offer a comment, except 
this. I have no doubt but that the Commandant and the entire 
Marine Corps feels nothing short of disgrace over the 
circumstances that we are discussing. I would like to, on 
behalf of the U.S. Army, offer my condolences to the family as 
well.
    Mr. Turner. Would you agree that inherent in an element of 
the crime of rape is force or threat of force and violence?
    General Rochelle. Indeed I would, sir.
    Mr. Turner. Thank you, General. I appreciate that.
    Mr. Tierney. Thank you.
    Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you both for being here. One of the things that you 
mentioned, Ms. Farrell, in the GAO report, is that there 
weren't specific guidelines, a framework from which to evaluate 
it. I am wondering, General Rochelle, do you believe, does the 
military feel that in fact they have those guidelines? Is that 
a disconnect from the report and some of the thinking that in 
fact there is a framework there?
    Maybe Ms. Farrell, if you could identify what you think, 
what is the missing framework?
    Ms. Farrell. Let me talk a little bit about what that 
guideline is before you launch into that. We are really talking 
about a framework. DOD does have policies. They do have 
instructions that set out what the SAPRO office is, roles, 
responsibilities. There are a number of players that are 
involved in this process, as has been discussed today, the role 
of the program coordinators, the victims advocates, the medical 
personnel. There are clear definitions about the restricted 
option versus the unrestricted option.
    And when we reported in January of this year on the 
academies, we acknowledged that there was a framework in place, 
but there was more that needed to be done in terms of 
benefiting from that framework in terms of an analysis and 
taking the data that was being reported to Congress and 
analyzing it to determine what it did mean, in order to tell 
what was working, what was not working.
    By the time we spread our wings, so to speak, and started 
looking at this issue throughout DOD, not just at the service 
academies, it appeared to us that the framework, that we saw 
more in place at the academies, was really not in place DOD-
wide. Again, there are policies and there are regulations. But 
there are not very clear goals, very clear milestones. The task 
force would be an example of the milestone that Congress had 
set for DOD, but there is nothing in any type of comprehensive 
framework that sets milestones of how this program is going to 
move forward over the next few years.
    So we are looking for very clear goals, very clear 
milestones, very clear performance measures and very clear 
criteria of how DOD will analyze the progress that it is trying 
to make.
    Ms. Davis of California. Thank you.
    Can I ask General Rochelle, is there a disconnect there? Do 
you think there is a belief, that there is a framework there 
that you are working from, or would you say that in fact that 
is a fair assessment of where you are right now?
    General Rochelle. Thank you for the opportunity, Ms. Davis. 
It certainly is from a factual perspective accurate, that is 
the absence of broad guidelines from DOD. But I will also add 
that I don't believe it has hampered, I really do not believe 
it has hampered the Army. I won't attempt to speak for any 
other service here in establishing our programs and making sure 
that our programs are moving forward.
    Now, that is not to suggest that we are perfect and from 
the sense of milestones, objectives, intermediate objectives 
and the like. I would never suggest that. But I really believe 
that we have the flexibility in the absence of those guidelines 
to be able to design our program in such a way that it works 
best for soldiers, especially given where the Army is in the 
global war on terror.
    Ms. Davis of California. But where do you think the 
shortcomings are? And Ms. Farrell as well. Because I think one 
of the issues that people have testified to, and very well, is 
the victim advocate and the role that individual plays. They 
are volunteers, they perhaps are not trained necessarily as 
well as they could be. Is that an area, or is there something 
else that maybe we haven't looked at?
    General Rochelle. Let me offer, if I may, as I mentioned in 
my initial response to the chairman, the one area is in the 
definitions, is in simple definitions and in how one computes 
certain metrics. That might be very helpful, so that it is 
consistent across the services.
    On the other hand, I would also add that once again, what 
it has not done is hamper our ability to launch what we 
consider to be certainly on the response side of the equation, 
which I can speak more to later, what we consider to be a very 
good program. We are not satisfied, by any stretch of the 
imagination, with where we are. But we are confident that we 
have a good----
    Ms. Davis of California. Is there anything about those 
statistics, whether it is in enforcement, whether it is in 
prosecution that you would believe would be something to look 
at? What concerns you as you look at those numbers?
    General Rochelle. What I would add, I would have a greater 
degree of confidence that when I looked across the same data 
for the Army, Navy, Air Force and Marine Corps that the 
definitions are common, that I can then glean greater insights 
from the information.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Ms. Davis.
    Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman, and thank you to the 
witnesses for trying to shed more light on this really urgent 
problem. I especially want to thank our representative from the 
military for apologizing to the family, the Lauterbach family 
for what happened. Obviously, we don't know all the facts there 
yet. But there is nothing, there is no way to deny that a woman 
serving her country and her unborn fetus are dead and that 
probably the circumstance came about because of a crime that 
she tried to report and tried to protect herself against in the 
military.
    I want to say a couple of things, Mr. Chairman. First of 
all, about the absence of the director of SAPRO. I am really 
shocked that the civilian side of the Defense Department would 
have created this problem. Responsibility starts at the top. 
Bob Gates is a person I have talked to personally about this 
issue, and who has expressed some interest and concern. It 
makes absolutely no sense to me that the Assistant Secretary of 
Defense for legislation would block the head of the appropriate 
office from testifying here under oath. All that suggests, as 
Chairman Waxman said, is that for some reason she might have 
under oath felt compelled to tell us something that the 
civilian side of the Defense Department didn't want us to know.
    Well, my plan, following this hearing, is to call Bob Gates 
and see what light he can shed. Having said that, the military 
side of the Defense Department is trying to step up to this 
problem. As I mentioned in my opening remarks, I think the Army 
is probably doing the best job. I have talked to Pete Geren 
several times about this myself and he is the one who said that 
he sees this as a watershed issue much like racial integration 
was 60 years ago. So I commend him and I commend you for what 
the Army is trying to do. I know that the chairman of the Joint 
Chiefs, Mike Mullen, is very interested in this, too. 
Leadership starts at the top.
    This isn't just a response problem. This is a prevention 
problem. The goal here is not to counsel women who have been 
brutally physically destroyed. The goal here is to prevent 
young soldiers from doing this to their fellow soldiers. We 
recognize that in an all volunteer force, some young people 
sign up for duty who may not have had clear boundaries imposed 
by the families they come from or the communities they come 
from. That is a problem with all young people. As a parent of 
four, I think I had to counsel my own kids many times on what 
was right and what was wrong. Maybe their families have done 
this and they haven't learned the lessons, I have no idea.
    But the point is, once they show up for duty, or even at 
the earlier stage, at the intake proceedings, because we hear 
that some of these problems start then, they have to be given a 
clear, easy to understand, course in what is right and what is 
wrong. So does their chain of command. Does either of you 
disagree with that?
    General Rochelle. Not only do I not disagree with it, 
Representative Harman, but I wholly, wholly endorse it. Our 
efforts toward prevention, and I am happy to have the 
opportunity to talk briefly about it, our effort toward 
prevention has really begun with a, if you will, a realization 
that young men and women are entering our Army today as you 
said with a different set of values in terms of the 
relationships between men and women, and between one another, 
men and men, women and women. And where the Secretary and the 
Chief are leading the Army, personally leading the Army, is 
toward this prevention aspect.
    As you know, ma'am, and I believe you have been invited to 
attend, the Army will launch in September phase two of our 
Sexual Assault and Prevention Response Program. We have 
phenomenal expectations for the success of that. But it will 
primarily begin before an individual enters the force, in terms 
of orientation and training on the prevention aspects, and to 
counter those, if you will, social norms that they enter our 
force with.
    As Secretary Geren has said, it is unconscionable to him, 
and the Chief has echoed this as well, that the same Army 
values that could cause a young man or woman to willingly and 
without hesitation lay down his or her life for a fellow 
soldier are the same Army values that should make sexual 
assault prevention unconscionable in the U.S. Army.
    Ms. Harman. Mr. Chairman, my time has expired. I would just 
like to quote one phrase from the GAO report which says, 
``Occurrences of sexual assault may be exceeding the rates 
being reported.'' You bet. We have an epidemic here. We have 
some folks in the military who really want to get this right. 
We have victims sitting before us who have been grievously 
abused, and many victims in the future unless we fix this. And 
I commend your subcommittee for moving forward here. I think we 
have to pass legislation demanding that changes be made, 
especially given what we just learned this morning, which is 
that at least some people on the civilian side of the 
Department of Defense don't want to come and talk to us.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you again, Ms. Harman.
    Elijah Cummings, Mr. Cummings from Maryland has joined us. 
He is a member of the full committee and we are pleased to have 
him with us this morning. Mr. Cummings, feel free to ask some 
questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    When I first got to Congress in 1996, sexual assault was a 
big deal. I will never forget, after I was only here for about 
3 months, I went on a tour of some of the bases, and we 
addressed some of the problems. But there have been continued 
questionable trends in the nature of non-combat related deaths 
of female soldiers that report incidents of sexual assault in 
theater. Of the total 174 reports of sexual assault in the U.S. 
Central Command, some 68 percent of unrestricted reports and 38 
percent of restricted reports were made in Iraq in 2007.
    Further, as indicated by the Sexual Assault Prevention and 
Response Office in 2007, these numbers are subject to change, 
as information is validated over time. Has this data changed 
since the Department's 2007 report? Either one of you.
    General Rochelle. Sir, I can't answer that question for the 
entire Department.
    Mr. Cummings. Do you find that there has been a continued 
higher amount of incidents of sexual assault in Iraq than any 
other area in the U.S. CENTCOMM?
    General Rochelle. Not for the Army, sir. Let me answer your 
question specifically for the Army. Sexual assault, reported 
incidents of sexual assault for the entire deployed theater 
represent 0.58 per 1,000. Whereas for the total Army, that 
number is 2.53, I will verify the last part of that in just a 
moment, per 1,000. So my point is, less than a third, less than 
a third of the total number of restricted and unrestricted 
sexual assault reports for the deployed force for the Army.
    Mr. Cummings. Thank you first of all for what you just 
said. I am also deeply concerned about the troubling numbers 
and that Congress, for that matter, has failed to prevent the 
Department and Congress has failed to prevent sexual assaults 
in theater, and the link to some of these service members' 
later non-combat related deaths. Specifically, this is what I 
am most concerned about. A lady named, well, it is Private 
Johnson, specifically, my office and the offices of 
Representatives Diane Watson and Lacy Clay have been contacted 
by Private Lavina Johnson's father. Are either one of you 
familiar with that case?
    General Rochelle. Sir, I am.
    Mr. Cummings. Specifically, my office and the offices of 
Representatives Watson and Clay have been contacted by her 
father, Private Johnson was a constituent of Mr. Clay. And an 
Army soldier who served in Iraq and later committed suicide 
while stationed in Iraq. There are a lot of questions 
surrounding her death. Are you familiar with that?
    General Rochelle. Sir, I am.
    Mr. Cummings. As a result of this case, I began to scratch 
the surface regarding the link between victims of sexual 
assaults and their later non-combat related deaths in theater. 
Unfortunately, I discovered several cases where a report of 
sexual assault occurs, and it is shortly followed by the death 
of the victim. And a suicide is far too often determined under 
questionable circumstances.
    To make matters worse, as identified in Ms. Farrell's 
submitted testimony, reports of sexual assault may be exceeding 
the rates being reported. I can only imagine the real number of 
our men and women in uniform who have suffered through a sexual 
assault ordeal in theater. For instance, of the bases located 
in Iraq, Camp Taji has reported a high incidence of female 
soldiers that have fallen victim to sexual assault and later 
meet their untimely death by suicide. There are even additional 
reports by the press indicating that these numbers at Camp Taji 
may be much higher, including eight victims from Fort Hood 
alone, that reported an incident of sexual assault, and later 
committed, allegedly committed suicide.
    One example is the case of Army Private First Class Tina 
Priest, who died on March 1, 2006, apparently committing 
suicide 11 days after she reported being sexually assaulted by 
a fellow soldier. After her death, the Army concluded that PFC 
Priest used her big toe to pull the trigger to commit suicide. 
Rape charges against the soldier whose sperm was found on 
Priest's sleeping bag was dropped, and he was convicted of a 
lesser charge of disobeying a direct order. No further 
investigation was conducted.
    I have run out of time, Mr. Chairman, and I thank you for 
your patience. But would you all comment on this whole 
phenomenon of sexual assault and allegations of suicide? And by 
the way, when are we going to get a clear answer with regard to 
PFC Johnson's father? He came in here, he was here, sitting in 
that seat right over there about 7 days ago, literally with 
tears in his eyes, saying the Army is giving him the runaround. 
He is very, very upset and I want to be able to give him some 
answers.
    General Rochelle. Sir, let me attempt to clear up, first of 
all, non-combat related deaths, which I would like to make sure 
we are clear on what that definition is. It includes everything 
from accidents to suicides to fatalities from disease that 
occur in theater and natural causes, writ large. In other 
words, it is not related to direct combat with the enemy or 
indirect fire, for example.
    So we are talking a very, very large number of types of 
incidents. The relationship between sexual assault and those 
types of fatalities, I am not sure how we can draw that 
connection because of the broad nature and the definition that 
relates to non-combat related fatalities. I don't specifically 
know the details on Private Johnson, who I think you mention is 
related in some way to the Lavina Johnson. I am familiar with 
that matter, and I also know, sir, that Army criminal 
investigative agents met with Ms. Johnson's father this month 
and were very forthcoming with him for all of the forensic 
evidence and all the information that relates to how the Army 
concluded its findings in her very unfortunate death.
    Beyond that, I don't know how much more forthcoming we 
might possibly be.
    Mr. Cummings. I know my time is up, Mr. Chairman. I will 
provide you with some written questions, because we have had an 
opportunity to look at the evidence, and I can tell you, it 
just doesn't, there are some inconsistencies that a first year 
law student would pick up on.
    General Rochelle. I would be happy to receive that, Mr. 
Cummings.
    Mr. Tierney. Thank you, Mr. Cummings.
    Mr. Platts, do you have some questions?
    Mr. Platts. Thank you, Mr. Chairman.
    First, I want to thank you and Ranking Member Shays for in 
the last session and this session holding these very important 
hearings and helping to raise awareness and focus on this very 
important issue.
    I want to thank our witnesses for their testimony. 
Lieutenant General Rochelle, I am a fellow Shippensburg 
graduate. Mine was undergrad in public administration, and I 
know yours was masters. I represent Moore College, so I 
appreciate your service.
    First, I just want to make a comment: your record of 
service and that of the overwhelming majority of all of our men 
and women is deserving of our Nation's deepest, deepest 
gratitude in serving and defending our Nation and the security 
of our citizens. I guess what I am challenged to understand, 
and in the previous hearing under then-Chairman Shays and now 
with Chairman Tierney, is, we certainly are making efforts, but 
we clearly have a long way to go in adequately addressing the 
challenge of sexual assault, prevention and response in our 
military ranks. And when we don't do it right, as I don't think 
yet we are, it does bring great disrespect on all who wear the 
uniform.
    As you well stated in your testimony, even one sexual 
assault violates the very essence of what it means to be a 
soldier, and is a betrayal of the Army's core values. I think 
that goes across all of our military branches. And somehow we 
need to do better in conveying from the top down that this is a 
betrayal. It is a betrayal of the values of the military, it is 
a betrayal of what our Nation stands for, and it will be dealt 
with in the most severe manner possible, with all due process 
being afforded.
    Until we get to that point, we are not doing right 
especially by the men and women wearing the uniform, all men 
and women wearing the uniform with honor, because they are 
being brought disrespect because of the wrongdoing of the 
minority in the ranks. And especially that man or woman who is 
wearing the uniform who is assaulted and not able to be 
protected, in the first instance, and then helped and assisted 
adequately.
    So I hope with your leadership and work and all in uniform, 
we will do better. The testimony we had last session from the 
cadet at the Air Force Academy, as a parent, it was just heart-
wrenching to hear. As one who regularly interacts with the 
military and does my best to support them, it is hard, as a 
parent, maybe, to say to a mom or dad, especially of a female 
looking to enlist or go to one of the academies, that you do it 
without some hesitation because of us not getting it right yet.
    I do have a specific question regarding Pennsylvania. In my 
district, I do a lot of work with the Guard, the 28th Division, 
soldiers getting ready to do pretty significant with the only 
Guard Stryker brigade going to Iraq later this year, including 
a good number of friends who serve who will be over there as 
part of that deployment. Can you highlight Army specifics you 
are taking, and trying to be more proactive here in protecting 
our soldiers and responding to assault, specifically if there 
is an effort focused on Guard and Reserve? Because they are in 
a different setting in the sense that often, the support they 
have is not the same as active duty forces who are at large 
bases with large Army infrastructure, as opposed to the Guard 
and Reserve who, if it happens during a 2-week summer 
activation or weekend training, or they go back to Guard status 
from full-time activation, is there some specific effort to 
ensure that Guard and Reservists that are sexually assaulted 
have the support in their home communities as opposed to simply 
on the bases where they may have been stationed?
    General Rochelle. Thank you, Representative Platts. I 
welcome the opportunity to comment on that.
    This is a one-Army program, a total Army program, active 
Guard and Reserve. Both our sexual assault response 
coordinators at installation and/or higher level command 
positions who have responsibility for coaching and mentoring 
it, and by the way, many of those installation-level, higher 
level sexual assault response coordinators are masters in 
social work degree individuals. And the policy to have unit 
victim advocates applies equally to the active component as it 
does to our reserve component brethren. More so than ever 
today, we have to function as a total force, we must. And we 
always strive to do that.
    Let me add one editorial comment, if I may. We have in our 
total force today 163,000 women. I would like point out that 
across the Department of Defense, it is my perception that this 
is a Defense-level statistic, 12 percent, 12 percent of our 
victims are male. So we don't discount, nor do we underscore, 
fail to underscore the importance of, this is a problem for 
everyone. We are addressing it in our National Guard and 
Reserve just as aggressively as we are in the active component. 
Deployed unit victim advocates and deployed sexual assault 
response coordinators, just like in the active component.
    Mr. Tierney. Thank you, General. Thank you, Mr. Platts.
    Mr. Shays, you are recognized.
    Mr. Shays. Thank you, Mr. Chairman.
    General, thank you for your service to our country. The 
questions I am going to ask do not reflect on your service. But 
how can I have any confidence whatsoever in a military that 
forces a young girl out of the Academy because she was raped, 
and then they said, well, she had sex, and leaves the rapist 
in? And how can I have confidence with a military where a young 
woman says she was raped, she is pregnant, and they just let 
her have to deal with the unbelievable intimidation that she 
had to deal with? How can I have any confidence in a military 
that comes before our committee in June 2006 and the Defense 
Task Force on Sexual Harassment and Violence that was set up in 
2005 did not have its complete membership and the military 
says, well, they will get right on it? Then we find out that 
they filled up the membership and yet they haven't met once.
    How can I have any confidence whatsoever?
    General Rochelle. Sir, first of all, I must assume that 
those are actual incidents. I am unfamiliar with any of them, 
or either of them with the exception of the committee that you 
refer to at the Department of Defense level. I can only tell 
you that the senior leadership of the U.S. Army is committed to 
ensuring that the American people have the confidence and this 
body has the confidence that we are totally committed to 
eradicate sexual assault in the U.S. Army.
    Mr. Shays. General, as the G1, you are responsible for 
retaining qualified soldiers and recruiting new members to the 
Army. You have discussed recently that some of the largest 
recruiting challenges you face are that moms and dads are not 
supportive of the Army as a career choice during a time of war. 
I am assuming you have seen the figures from the VA that one in 
three women in uniform report having been sexually assaulted.
    How do I tell my constituents that serving in the military 
is good and a noble service to our country when they also have 
to face danger from their peers as well as the enemy?
    General Rochelle. Sir, I am familiar with the VA's 
statement and the data that has recently been reported. We are 
concerned, as well, with the confidence of the American people, 
especially that every soldier is valued for his or her 
contribution on or off the battlefield. That is precisely why, 
Ranking Member Shays, that the U.S. Army is focused on 
prevention. Addressing the social norms that young people come 
to us possessing, if you will, today, and then instilling in 
them and their social interactions between soldiers, as well as 
between civilians, or with civilians on the battlefield and off 
the battlefield, that those values are equally applicable to 
those relationships as they are to the relationships when under 
fire.
    Mr. Shays. Would you explain to me why this task force has 
not met?
    General Rochelle. Sir, I am not in a position to explain 
why the DOD task force has not met.
    Mr. Shays. Ms. Farrell.
    Ms. Farrell. We have heard a variety of reasons why the 
task force hasn't taken place. We have been monitoring it since 
we began this work at the request of this committee. Initially 
we were told that there was the intent to carry task force 
members over from the first task force that served on the 
academy task force. Then we heard that there was difficulty 
just getting people, the right mix of people and the 
composition. We hear the same thing that you have heard, as we 
have been monitoring this for the past year and a half, that, 
soon, you know, next month, next month. Our understanding is 
that all the task force members have been appointed and now the 
plan is to begin next month.
    Mr. Shays. I heard that in June 2006. And it was a pretty 
incredible hearing, so you would have thought that would have 
been immediate action.
    First, I have to, we all are up for re-election and I am 
asking my constituents to renew my contract. But if my 
constituents renew my contract and I am appointed to be either 
the ranking member of the full committee or chairman, I am 
going to hire, as one of my hires, a woman who has been 
sexually assaulted in the military, someone like Beth Davis. I 
am going to have her be able to devote her time to visiting the 
academies, obviously working in conjunction with the majority, 
and to visit the military. I don't think the military yet takes 
this seriously. And I am just dumbfounded by it. I think the 
little actions we have seen are frankly not impressive.
    Mr. Tierney. Thank you, Mr. Shays.
    We have a couple of Members who wish to ask a few more 
questions as followup, if the witnesses are fine with that. Ms. 
Davis.
    Ms. Davis of California. Thank you, Mr. Chairman, and 
again, thank you both for being here. I think we would all 
recognize that on many fronts, tremendous improvement has been 
made. I especially appreciate the fact that you talked about 
early prevention, because I think that is important. And that 
is not just your job, that is all of our jobs, it is the 
school's job, it is our family's job, and we all need to do a 
better job at that. Having people that are willing to come 
forward and talk about their experiences is critically 
important.
    I wanted to just followup a little bit on Mr. Shays, 
because we have talked about a number of issues here, the 
witnesses have spoken about the need to look at the advocacy 
program, the sexual abuse response team and how people become 
part of the SARC, what their role is, whether that should be a 
volunteer. We also know that there is a host of information 
about whether investigations go forward with the kind of 
support that they need, whether they are resourced enough to do 
that.
    Where do those discussions take place, and how can we be 
more helpful in helping you to get to that place? One of the 
things we did do in the recent authorization bill was to ask 
for better definitions, so that those reports can move forward. 
But beyond all those statistics and behind the statistics are 
the people that we are trying to serve. We learn from people in 
our districts every day about problems. And how do you see 
that, what is that context? Is it the task force? Is it our 
Committee on Personnel? How can we support that effort to a far 
greater extent? Because none of us want to be sitting here in 
another year or so feeling that there are pieces of this that 
we could perhaps have dealt with better, and I would like you 
to respond to that.
    General Rochelle. I think the answer to your question, 
Representative Davis, is all of the above. It is the task 
force, it is the partnership, and I am speaking now from the 
standpoint of the Army, the partnership that the Army views it 
has with the Congress, specifically the House Armed Services 
Committee, the Personnel Subcommittee, this committee and 
others, and working collectively and collaboratively to 
eliminate sexual assault from our lexicon. I agree, and would 
echo once again that I think definitions, common definitions 
would be beneficial to all of us, not just definitions, but 
quite frankly the way in which we calculate our various 
statistics, so that we know we are looking at a common playing 
field, level playing field, if you will.
    But I would conclude by again saying, we view this as a 
partnership with the Congress.
    Ms. Davis of California. Thank you. I think the chairman 
would probably say that partnership would certainly mean having 
appropriate people testify. And I think that is a great 
frustration that is not part of the Personnel Committee today. 
But I certainly would ask that be responded to, because I think 
that is part of the partnership.
    Thank you.
    Mr. Tierney. Thank you, Ms. Davis.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Chairman and ranking member, I want to thank you again 
for holding this. One of the things that is so important when 
we have a hearing like this is that you start to learn more 
information, additional information that takes you down other 
paths that hopefully can lead to solutions and some 
recommendations. I was just told by staff that the Army and 
Marine Corps apparently signed felony waivers for a total of 10 
convicted sexual assaulted-related crimes in fiscal year 2007. 
General, are you aware of this, and if so, that of course begs 
the question, how does the Army enforce a DOD no tolerance 
standard while simultaneously allowing convicted felons to 
enlist?
    General Rochelle. The Army, I am familiar with 5 of the 10 
cases I believe you cite for the Army and the Marine Corps. Two 
points, if I may, Representative Turner. Every waiver for 
enlistment against any standard, certainly a standard that 
deals with a misdemeanor or a waiver of an exception for 
enlistment that deals with something that may carry a felony 
level conviction or offense is reviewed by a general officer in 
the chain of command within the U.S. Army Recruiting Command, 
the National Guard or the Reserves. So every single one of 
those was looked at by successive levels of leaders, all the 
way up to a general officer, who then made a decision that the 
circumstances warranted that young person enlisting.
    The key distinction I would like to make is because the 
offense may have carried a felony level conviction does not 
mean the individual was convicted. It may not even mean the 
individual was taken to court.
    Mr. Turner. Obviously you can understand our concern, 
though. If you have a no tolerance standard, you are saying 
that, you can't stay. But it appears from this information, you 
are saying you can come in. I am certain that we are going to 
have additional questions about this. I know the committee has 
been working on this issue with you. I appreciate that there is 
additional information that we need to know, but I do believe 
that we will be asking for it.
    General Rochelle. I would be happy to share it, sir.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you. Just let me wrap up, if I can, with 
a couple of questions. I think Ms. Farrell's work deserves some 
attention here.
    Ms. Farrell, you talked about the guidance not adequately 
addressing some issues like implementation of the program in 
deployed and joint environments. Can you expand on that a 
little bit for us?
    Ms. Farrell. Certainly. Especially in locations such as 
Iraq, Afghanistan, where you have members from all the 
services, possibly even the Coast Guard, when we did our 
surveys at overseas locations, and had our one on one 
interviews with over 150 service members, often the issue came 
up that members would not know who to turn to in the event that 
they were a victim of sexual assault, if they were Coast Guard, 
for example, in Bahrain and in a joint environment. Do they go 
to the Navy? Who is their Coast Guard representative? The 
guidance is just lacking in this particular area of how 
situations would be handled. And of course, this is so 
important with the restricted reporting requirement, where you 
can only go to certain individuals and keep that incident 
confidential.
    Mr. Tierney. Thank you.
    General, how does the Army deal with that in a joint 
environment, in a deployed situation?
    General Rochelle. Every joint element, whether it is the 
Joint Staff in the Pentagon, or a joint headquarters in Iraq or 
Afghanistan, has a U.S. Army element that is the command and 
control element that oversees both training standards, 
discipline in general, as well as the sexual assault prevention 
program for the Army members of that unit, in order to assure 
service consistency, which is very important. I think that is 
the answer to your question, sir.
    Mr. Tierney. So you are saying that the Army has its own 
operation wherever they go?
    General Rochelle. That is correct.
    Mr. Tierney. Whether it is a joint force or whatever, that 
they stay within the Army lanes and they just report on up 
there?
    General Rochelle. Under the U.S. Army element for that 
joint headquarters, yes, sir.
    Mr. Tierney. OK. Now, other services don't report to that 
Army chain?
    General Rochelle. Sir, they do not, for certain----
    Mr. Tierney. They don't have a SARC officer there?
    General Rochelle. For certain Title 10 functions, they do 
not.
    Mr. Tierney. So I am thinking that maybe some other service 
might not have the direction that the Army does, they may be 
there without a SARC officer and they can't go to your force 
and they may not have one of their own.
    General Rochelle. Well, I wouldn't assume that, sir.
    Mr. Tierney. I wouldn't assume it, either, but I am seeing 
Ms. Farrell's point here, it would be nice if the DOD had sort 
of a standard across that dealt with that, and it might make it 
easier.
    General Rochelle. Yes, sir.
    Mr. Tierney. Ms. Farrell, you found that sometimes the 
program management was collateral duty for people. Did you find 
that invariably diminished the capacity of the person that was 
responsible for the program, or did you make that point that it 
just was a fact, without making an assessment as to whether or 
not it diminished the performance?
    Ms. Farrell. You are referring to the program coordinator, 
sir?
    Mr. Tierney. Exactly. The program management is how you 
phrased it, the program coordinator's effectiveness can be 
hampered when program management is a collateral duty.
    Ms. Farrell. We found that there are different staffing 
models for the program coordinators, where they were talking 
about the SARC or the victim advocates, which often are 
volunteers. This is something that is flowing from our draft 
report that DOD could take action on instead of waiting for a 
task force that is next year, by looking at the various 
staffing models and what is working well and what is the most 
effective. It is one of those best practices that may be 
applied from one service to another service.
    Mr. Tierney. General, does the Army have all full-time 
people or do they have a mix? And have there been any 
assessments as to whether or not one is outperforming the 
other?
    General Rochelle. Thank you for the opportunity to address 
that question. I had hoped to address it from a previous 
question by one of the Members. At the installation level and 
at the higher command level, it is not a collateral duty in the 
Army. The installation sexual assault response coordinator is 
solely responsible for that program.
    At the unit level, it is a collateral duty, but it is not a 
voluntary duty in the U.S. Army. The commander selects the non-
commissioned officer or the officer who serves as the unit 
victim advocate, two at certain levels at command, one at other 
levels of command. And that is the commander's way of putting 
his or her stamp of approval on that individual's capability 
and training, I might add, to perform the duties adequately.
    Mr. Tierney. In the Army, do you have any attempt to see 
that there are more women involved in this process than men? 
There was some interesting discussion between the witnesses 
that preceded whether or not it makes it easier on a female 
victim to report up through people who are also women.
    General Rochelle. Sir, it varies. Our anecdotal, if you 
will, information suggests that it just depends on the 
individual. Some are more comfortable speaking to a member of a 
different gender, and others are equally comfortable speaking 
to a SARC or unit victim advocate of the same gender.
    We have approximately 85 percent, I think that is on our 
deployed force, 85 percent of our program managers at the level 
of unit victim advocate SARC, deployed SARC, are male, 10 
percent in theater. And in the continental United States, it is 
15 percent female.
    Mr. Tierney. Ms. Farrell, do you have any observations on 
that point, or any comments? It might be outside your report, 
but I am just curious to know your thoughts.
    Ms. Farrell. Often in some of these locations, there aren't 
females, enough females to volunteer to take on such duties. I 
agree that it would vary by the individual, who the individual 
is comfortable with. It did come up in some of our one on one 
discussions, that some females feel more comfortable with other 
females as the victim advocates. I would assume the same would 
be true for males, they might feel more comfortable with a male 
victim advocate.
    Mr. Tierney. Thank you.
    Ms. Torres had a particular situation where her assailant 
was in fact a medical professional, and then she was in a 
situation where she was in that system and trying to keep paper 
records as opposed to electronic records. Does the Army have a 
policy for just that situation, where somebody might be in a 
situation where their assailant was in the medical profession 
and would otherwise have access to their data, unless they were 
kept separately, and what does the Army do in that kind of an 
incident?
    General Rochelle. Sir, I am sorry, I am not completely 
familiar with the instance you are referring to.
    Mr. Tierney. Ms. Torres testified earlier that her 
assailant was in fact a doctor, and that after she had made her 
complaint, she still had to get medical treatment in the 
system. But that all the records were being kept in electronic 
data, unless whoever was in charge of that particular SARC 
office would have cooperated and made sure that they were kept, 
or the commander made sure that they were kept in paper 
documents, so that this individual who was going through a 
disciplinary proceeding wouldn't have access to all of her 
medical records while that was going on.
    So does the Army have a policy with what they do in that 
situation, or is that so unique that you have not addressed it 
yet?
    General Rochelle. Sir, I am insufficiently familiar with 
exactly how that may be addressed under the HIPAA rules that 
govern who has access to medical records and who does not. If 
you would permit me, I would like to take that one for the 
record.
    Mr. Tierney. I would be happy to do that, just give it to 
you for your consideration, since if a situation happened once, 
it is probably not the only time it is going to happen. Maybe 
each branch ought to look at what they are going to do about it 
in such a situation. I would appreciate that.
    Last, Ms. Farrell, you mentioned the shortage of mental 
health services, the access to mental health services. How much 
of a shortage is there, how desperate is it, and what 
recommendations might you make with respect to that?
    Ms. Farrell. Shortages are DOD-reported shortages coming 
from a report a couple of years ago. And we do have current 
work that is underway for the Senate Armed Services Committee 
to look at medical personnel requirements and where are the 
gaps and what is DOD and specifically the Army doing about 
those shortages as they move forward.
    The shortages of mental health providers came up at 
locations, in deployed locations. Of course, in CONUS, service 
members can have long waiting lines, as well, depending on the 
installation and the population that they are serving. They may 
have access to VA, they may not. It depends upon the location. 
So it is going to vary by location.
    Mr. Tierney. What we found at the Walter Reed hearings and 
subsequent hearings as well, just getting mental health 
professionals into the service at adequate levels is difficult. 
General, it just begs the question, what are you doing?
    General Rochelle. Sir, just to add to Ms. Farrell's 
comments, we are challenged on several fronts, not just because 
of the heavy demands of deployment. But I would like to 
specifically highlight mental health providers. We are 
challenged not only in the deployed environment, but we are 
challenged here in the continental United States as well.
    Fortunately, however, the answer to the question what are 
we doing, we have received the authorization from the Office of 
Personnel Management to bypass many of the OPM bureaucratic 
rules and do direct, and actually execute direct hires of these 
professionals. Even that level of authority, which would allow 
me to walk up to, or the commander of any hospital facility to 
walk up to a person who is fully qualified and say, I would 
like you to come to work for us, serving our soldiers, family 
members, as well as our deployed force, it is inadequate to the 
task. There simply aren't enough.
    Mr. Tierney. Is there something on a policy basis, or 
otherwise, that Congress should be addressing to help with that 
situation?
    General Rochelle. Sir, if I may, that may be an area for 
continued discussions in the partnership with the U.S. 
Congress.
    Mr. Tierney. OK. We should do that, then.
    Do either of you have any comments you would like to make 
as we wrap this up? Is there something that we should have 
asked you that we didn't? Ms. Farrell.
    Ms. Farrell. Thank you for the opportunity, and I would 
just like to take a second to thank some of the staff that are 
here that have done this very comprehensive work for you. 
Marilyn Wasleski, the Assistant Director, Wesley Johnson, the 
Analyst in Charge, Pawnee Davis and Steve Marchesani, Analysts.
    Mr. Tierney. We thank them as well. We really appreciate 
your work, and it was a comprehensive report. I think we will 
be able to hopefully get some direction on a new policy on that 
will be helpful.
    General, do you have any closing comments?
    General Rochelle. Sir, I would like to take the opportunity 
on behalf of the Secretary of the Army, the Honorable Pete 
Geren, and the Chief of Staff of the Army, General George 
Casey, and every soldier in uniform, to take the opportunity to 
apologize to any, any soldier who has ever worn the uniform who 
has suffered the outrage of sexual assault.
    Mr. Tierney. We appreciate that.
    Thank you both very much for your testimony. This concludes 
the hearing.
    [Whereupon, at 1 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
